<html>
<title> - NATIONAL WILDLIFE REFUGE IMPROVEMENT</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                  NATIONAL WILDLIFE REFUGE IMPROVEMENT

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON FISHERIES CONSERVATION,
                          WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

                                H.R. 511

A Bill To amend the National Wildlife Refuge System Administration Act 
   of 1996 to improve the management of the National Wildlife Refuge 
                     System, and for other purposes

                                H.R. 512

  A Bill To prohibit the expenditure of funds from the Land and Water 
  Conservation Fund for the creation of new National Wildlife Refuges 
      without specific authorization from Congress pursuant to a 
  recommendation from the United States Fish and Wildlife Service to 
                           create the refuge

                               __________

                     MARCH 6, 1997--WASHINGTON, DC

                               __________

                            Serial No. 105-7

                               __________

           Printed for the use of the Committee on Resources

                               __________


                     U.S. GOVERNMENT PRINTING OFFICE
 40-567 cc                  WASHINGTON : 1977
-----------------------------------------------------------------------------
             For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               NICK LAMPSON, Texas
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                    JIM SAXTON, New Jersey, Chairman
W.J. (BILLY) TAUZIN, Louisiana       NEIL ABERCROMBIE, Hawaii
WAYNE T. GILCHREST, Maryland         SOLOMON P. ORTIZ, Texas
WALTER B. JONES, Jr., North          FRANK PALLONE, Jr., New Jersey
    Carolina                         SAM FARR, California
JOHN PETERSON, Pennsylvania          PATRICK J. KENNEDY, Rhode Island
MICHAEL D. CRAPO, Idaho
                    Harry Burroughs, Staff Director
                    John Rayfield, Legislative Staff
                 Christopher Sterns, Democratic Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held March 6, 1997.......................................     1

Text of:
    H.R. 511.....................................................    63
    H.R. 512.....................................................    88
Statement of Members:
    Dingell, Hon. John D., a U.S. Representative from Michigan...     3
    Farr, Hon. Sam, a U.S. Representative from California........    20
    Miller, Hon. George, a U.S. Representative from California...     9
    Saxton, Hon. Jim, a U.S. Representative from New Jersey; and 
      Chairman, Subcommittee on Fisheries Conservation, Wildlife 
      and Oceans.................................................     1
    Tanner, Hon. John, a U.S. Representative from Tennessee......     5
    Young, Hon. Don, a U.S. Representative from Alaska, and 
      Chairman, Committee on Resources...........................     2

Statement of Witnesses:
    Babbitt, Bruce, Secretary of the Interior....................     9
        Prepared statement.......................................    95
    Baranek, John, President, Herzog Company.....................    40
        Prepared statement.......................................   120
    Beard, Daniel, Vice President, National Audubon Society......    43
        Prepared statement.......................................   130
    Craven, Jeff, Cloverdale, OR.................................    41
        Prepared statement.......................................   128
    Dewey, Robert, Director, Habitat Conservation Division, 
      Defenders of Wildlife......................................    44
    Easterbrook, Robert, Sr., President, Safari Club (prepared 
      statement).................................................   144
    Horn, William, Director of National and International 
      Affairs, Wildlife Legislative Fund of America..............    23
        Prepared statement.......................................    55
    Lamson, Susan, Director, Conservation, Wildlife and Natural 
      Resources, Institute for Legislative Action, National Rifle 
      Association of America.....................................    27
        Prepared statement.......................................   110
    Myers, Gary T., Executive Director, Tennessee Wildlife 
      Resources Agency...........................................    28
        Prepared statement.......................................   114
    Peterson, R. Max, Executive Vice President, International 
      Association of Fish and Wildlife Agencies..................    25
        Prepared statement.......................................   104
    Richter, Bernie, Assemblyman, State of California............    37
        Prepared statement.......................................   116
    Schlickeisen, Rodger, President, Defenders of Wildlife 
      (prepared statement).......................................    56

Additional material supplied:
    An African trip yields a trophy rhino for Teddy Roosevelt 
      (picture)..................................................   102
    Audubon, John James (picture)................................   103
    Dingell, Hon. John D., testimony of August 9, 1994, before 
      the Committee on Merchant Marine and Fisheries.............    90
    How to create an entitlement program without Congressional or 
      Executive Oversight in 10 easy steps--a case study: Stone 
      Lake NWR...................................................   126
    Interior Department:
        Co-equal purposes of refuges.............................    22
        Progress report on implementation of Executive Order 
          12996..................................................    99
        Refuge water rights......................................    20

Communication submitted:
    Peterson, R. Max: Letter of February 27, 1997, with 
      attachment to Charles W. Johnson...........................   141



  NATIONAL WILDLIFE REFUGE SYSTEM IMPROVEMENT ACT OF 1997 AND THE NEW 
                    REFUGE AUTHORIZATION ACT OF 1997

                              ----------                                 



                        THURSDAY, MARCH 6, 1997

        House of Representatives, Subcommittee on Fisheries 
            Conservation, Wildlife and Oceans, Committee on 
            Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:30 a.m., in 
room 1324, Longworth House Office Building, Hon. Jim Saxton 
(Chairman of the Subcommittee) presiding.

 STATEMENT OF HON. JIM SAXTON, A U.S. REPRESENTATIVE FROM NEW 
 JERSEY; AND CHAIRMAN, SUBCOMMITTEE ON FISHERIES CONSERVATION, 
                      WILDLIFE AND OCEANS

    Mr. Saxton. The Subcommittee on Fisheries Conservation, 
Wildlife and Oceans will come to order. The Subcommittee is 
meeting today to hear testimony on the National Wildlife Refuge 
System. Under committee rules, any oral opening statements at 
hearings are limited to the Chairman and the ranking member. 
This will allow us to hear from our witnesses sooner and help 
members keep their schedules. Therefore, if other members have 
statements, they can be included in the record.
    We will be discussing two bills today, H.R. 511, The 
National Wildlife Refuge System Improvement Act of 1997, and 
H.R. 512, the National Wildlife Refuge Authorization Act of 
1997.
    The third district of New Jersey, which I represent, is the 
home of the Edwin B. Forsythe National Wildlife Refuge, named 
in honor of my predecessor in Congress. The people in my 
district are proud to safeguard this fragile land. Clearly, as 
long as the local environmental community and the local 
sportsmen are supportive of the refuge and its uses, it will 
remain an important and well-regarded part of the community. I 
am happy to lend my support to H.R. 511, because I believe it 
fosters good will toward the refuge, which is sometimes sorely 
needed.
    The fundamental goal of H.R. 511 is to bring up to date the 
National Wildlife Refuge Administration Act of 1966. The author 
of the 1966 act, John Dingell of Michigan, is a cosponsor of 
H.R. 511 and will submit testimony on behalf of the 
legislation. H.R. 511 will establish a system-wide set of 
purposes for our refuge system. It makes wildlife-dependent 
recreation--fishing, hunting, wildlife observation and 
environmental education--purposes of the system. It also allows 
these existing historical wildlife-dependent uses to continue 
on newly acquired lands unless those uses are determined to be 
incompatible. The term compatible use is defined. I joined in 
sponsoring this legislation because it makes much-needed 
improvements to the way our National Wildlife Refuge System is 
used and run.
    H.R. 512 would prohibit Land and Water Conservation Fund 
monies to create a new refuge without Congressional 
authorization. The bill's sponsor, Don Young of Alaska, will 
explain H.R. 512 in his opening statement.
    I look forward to hearing from our distinguished witnesses.
    [Statement of Hon. Don Young and Hon. John Dingell 
follows:]

  Statement of Hon. Don Young, a U.S. Representative from Alaska; and 
                    Chairman, Committee on Resources

    Mr. Chairman, I want to compliment you for scheduling this 
hearing on H.R. 511, the National Wildlife Refuge System 
Improvement Act, and H.R. 512, the New Wildlife Refuge 
Authorization Act.
    H.R. 511 is an improved version of a measure the House of 
Representatives overwhelmingly adopted last year, and it would 
be the first comprehensive refuge reform legislation since the 
enactment of the National Wildlife Refuge Administration Act of 
1966.
    Our Refuge System is now comprised of 511 units located in 
all 50 States and five territories. It includes 94 million 
acres of Federal lands. A portion of the System has been 
purchased from proceeds of duck stamps, import duties on arms 
and ammunition, and refuge entrance fees.
    These Federal lands provide essential habitat for thousands 
of species and they offer recreational opportunities for 
millions of Americans. It is important to remember that the 
vast majority of our refuge lands are not national parks, 
marine sanctuaries, or wilderness areas. They are multi-use 
lands.
    While my legislation has sparked a lively debate on the 
future of our Refuge System, it is essential that the public 
understand that H.R. 511 is modest, pro-environment 
legislation.
    The fundamental goals of this bill are:
    First, to provide for the first time a nationwide set of 
six purposes for our Refuge System--to establish a nationwide 
network of lands to conserve and manage fish, wildlife, and 
plants; to conserve, manage, and restore fish and wildlife 
populations, plant communities, and refuge habitats; to 
conserve and manage migratory birds, anadromous fish, and 
marine mammals; to allow compatible wildlife-dependent 
recreation, which is defined as fishing, hunting, wildlife 
observation, and environmental education; and to fulfill 
international treaty obligations. These are equally weighted 
purposes and I am perplexed why anyone would object to the 
inclusion of compatible wildlife-dependent recreation.
    Second, my bill defines the term ``compatible use'' by 
using the language the U.S. Fish and Wildlife Service 
incorporated within their operating regulations years ago. 
While a refuge manager will retain the power to determine what 
is a ``compatible use'', this statutory definition should 
provide the guidance needed to make the proper decision.
    Third, wildlife-dependent recreation will be allowed to 
occur during the interim period after the land has been 
acquired, but before the implementation of a management plan, 
unless the refuge manager determines that those activities are 
incompatible. There are a growing number of Americans who are 
frustrated over the Service's refuge land acquisition process. 
These Americans strongly support our Refuge System, they have 
encouraged elected officials to set aside certain lands for 
inclusion in the System, and they have contributed through the 
purchase of certain items, like duck stamps, millions of 
dollars. Sadly, they have learned that, for no rational reason, 
their favorite fishing or bird watching spot has been placed 
off limits during open-ended periods of government study. My 
``open until closed'' provision will restore the public's faith 
without undermining or delaying the completion of the necessary 
management studies.
    Fourth, this legislation provides that fishing and hunting 
should be permitted unless a finding is made that these 
activities are inconsistent with public safety, the purposes of 
the specific unit, or are not based on sound fish and wildlife 
management.
    Fifth, H.R. 511 incorporates the President's ten 
``directives'' to the Secretary of the Interior on how the 
Refuge System should be managed in the future. These are 
contained in his Executive Order of March 25, 1996.
    Finally, the proposal requires the formulation of 
conservation plans for each of the 511 refuges within 15 years 
of the date of enactment. We need to know what kind of 
archaeological, natural, and wildlife resources exist on these 
lands. This inventory has been a goal of the environmental 
community for many years.
    With that brief overview, let me now tell you what H.R. 511 
does not address. For instance it--
    <bullet>does not permit or require hunting and fishing to 
occur on every wildlife refuge. These activities must be found 
``compatible'' and must meet H.R. 511's three-part test;
    <bullet>does not affect Federal, State, or local water 
rights. This bill does not limit the ability of the Federal 
Government to secure water for a refuge;
    <bullet>does not facilitate nonwildlife-dependent uses such 
as grazing, farming, mining, or oil and gas development. As 
under current law, nonwildlife-dependent uses may continue to 
occur when they are found to be compatible. This bill does not 
mandate, enhance, or protect such uses;
    <bullet>does not increase or decrease the size of any of 
the 511 refuge units;
    <bullet>does not limit the Service's ability to regulate 
pesticides used by row farmers or anyone else in the Refuge 
System;
    <bullet>does not permit the commercialization of our Refuge 
System. To repeat, this bill makes only compatible wildlife-
dependent recreational uses a purpose of the System. They are 
clearly defined as fishing, hunting, wildlife observation, and 
environmental education; and
    <bullet>does not limit the Fish and Wildlife Service's 
ability to acquire new refuge lands.
    The National Wildlife Refuge System needs to have a 
statutory list of purposes, uniform guidelines to determine 
what activities are permissible, comprehensive conservation 
plans, and the enthusiastic support of the American people who 
finance this System with their hard-earned tax dollars.
    These are the goals of the National Wildlife Refuge System 
Improvement Act of 1997. This bill is supported by many 
organizations, and it will ensure that our Nation's Refuge 
System is managed more effectively in the future. It is a sound 
piece of conservation legislation that reaffirms the legacy of 
President Theodore Roosevelt and the vision of the National 
Wildlife Refuge System Administration Act of 1966.
    I want to thank you, Mr. Chairman, and our distinguished 
colleagues, John Dingell, John Tanner, and Duke Cunningham, for 
joining with me in sponsoring this vital legislation and for 
your collective leadership in this historic effort.
    Finally, I am pleased that we are obtaining testimony on 
H.R. 512, the New Wildlife Refuge Authorization Act. Under the 
terms of this legislation, no funds can be expended from the 
Land and Water Conservation Fund (LWCF) to create a new refuge 
without prior Congressional authorization.
    Currently, the U.S. Congress authorizes coastal barrier 
units, flood control projects, highways, national parks, scenic 
rivers, and weapon systems. In my judgment, it is now 
appropriate to require Congressional authorization in those 
limited circumstances when a new refuge is created with LWCF 
money. This bill will not affect any additions to the existing 
511 refuge units nor those created with money from Migratory 
Bird Conservation Fund.
    What it will do is to ensure that private property owners 
and their hard-earned tax dollars are fully protected in the 
future. After all, we are talking about the expenditure of 
millions of dollars. I want to compliment our colleague, 
Richard Pombo, for his tireless work and leadership on this 
issue.
    Thank you, Mr. Chairman. I look forward to hearing from our 
distinguished witnesses. I also remain hopeful that Secretary 
Babbitt will soon respond to the offer John Dingell and I made 
to him on December 5, 1996, to discuss those provisions in H.R. 
511 that may continue to cause concern within the 
Administration.

                                ------                                


Testimony of the Honorable John D. Dingell, a U.S. Representative from 
                                Michigan

    Mr. Chairman, I appreciate having the opportunity to 
present testimony this morning on H.R. 511, the National 
Wildlife Refuge System Improvement Act of 1997. For the second 
straight Congress, I am honored to have the chance to work with 
my good friend and colleague, Chairman Young, who asked me to 
join him in offering a bill that will meet the next generation 
of needs in our growing, and in many cases troubled, refuge 
system. Unfortunately, I am unable to join Chairman Young this 
morning because I am accompanying President Clinton to Michigan 
for his address to the Michigan State Legislature. It is my 
hope to have the chance to provide him with a few good words 
about our efforts.
    In the past few days, I have had the chance to talk to 
Chairman Young about H.R. 511, and I know he is truly committed 
to passing a bill which not only makes common-sense 
improvements, but that President Clinton can sign into law 
without hesitation. Sensing that common ground is in reach, I 
also have talked to officials from the Administration to 
continue to seek their help in guidance in passing a bill in 
the House that will be acceptable to both the Senate and the 
President.
    In the last Congress, I was a strong supporter and 
cosponsor of the National Wildlife Refuge Act (H.R. 1675), a 
bill which is the result of thorough consideration, debate and 
consultation between all parties with a sincere and strong 
interest in our National Wildlife Refuge System. While it 
passed the House, there remained several problems to resolve 
which probably prevented even the Senate from taking up the 
measure. H.R. 511 addresses nearly every concern that has been 
raised by the Administration and groups interested in the 
refuge system's future. Is it a perfect bill? No. But it is a 
good place to begin the discussions which can lead to enactment 
of needed reforms during this Congress.
    Ihave been personally involved in a number of ways with 
most of our refuge system's units. I served as Chairman of the 
Subcommittee from 1965 to 1974, during with time I led efforts 
to pass the National Wildlife Refuge System Act of 1966. I have 
also served for 27 years as the Democratic representative of 
the House to the Migratory Bird Conservation Commission, where 
we have worked together to acquire over 600,000 acres of 
habitat for countless migratory birds and other wildlife.
    Thirty-one years after passage of the Refuge Administration 
Act, I am proud to see the accomplishments made as a result of 
that bill. I am pleased that the System helps to recover 
threatened and endangered species; for contributing to the 
diversity of refuge areas; and for serving more traditional 
fish and wildlife-related purposes such as hunting, fishing and 
wildlife observation.
    In fact, it is important to recognize the unique role that 
our nation's hunters and fishermen play in providing constant 
support for the expansion and maintenance of our Wildlife 
Refuge System. America's sportsmen and women provide this help 
not only with their votes, but also through the purchase of 
duck stamps--a substantial portion of the public dollars 
expended in support of the Refuge System. Last year, the 
President expressed his support of the sporting community by 
issuing Executive Order 12996, which recognizes sporting uses 
as a priority use of the System. Having hunted with the 
President, I know of his strong interest in our Refuge System 
and I am pleased that he took the initiative with his Executive 
Order almost one year ago. It is my hope that he, and others in 
his Administration, will recognize the merits of the 
legislation before us, which codifies much of that order and 
gives us the opportunity to update refuge law.
    H.R. 511 provides some long-sought legislative improvements 
for the refuge system. For many years, environmentalists and 
sportsmen and women have called for an organic act which lays 
out clear purposes of the system and requires the completion of 
conservation management plans for each refuge. A number of 
studies by the General Accounting Office and the Fish and 
Wildlife Service have found many problems on our refuges. These 
problems range from overuse and toxic contamination to a lack 
of funding and proper management. H.R. 511 is the result of a 
thorough examination of these problems and an attempt to make 
improvements in the management of the System which will require 
better planning, compatible uses, and a clear list of purposes 
for the System.
    When Chairman Young approached me about cosponsoring this 
legislation, I said yes so that Congress could give the Fish 
and Wildlife Service the tools it needs to do the proper job. 
There is no doubt that this bill has caused the Fish and 
Wildlife Service some reservations, and I am pleased that 
Secretary Babbitt has chosen to show his interest in the refuge 
system by appearing before this distinguished panel today. 
While some differences most certainly remain, I believe that 
the gaps in thought are not insurmountable, and that surely we 
can close those gaps if all parties truly want to improve the 
management of the refuge system.
    The largest source of remaining concern is whether hunting 
and other wildlife dependent recreation should be elevated to a 
purpose of the System. This issue is very important to 
America's sportsmen and women. However, I believe there are 
many ways to assure that the first Clinton Administration's 
expansion of hunting opportunities can be preserved. Again, 
there are ways in which all interested parties can find a 
solution, perhaps similar to the approach put forward in the 
other body during in the 103rd Congress. That approach, 
introduced by Senator Graham, would create a two-tiered set of 
purposes for the refuge system. This perhaps is not the perfect 
solution, but to date, I have heard none better by any 
reasonable party. I hope the Committee will be open to hearing 
suggestions for improvements before this bill once again comes 
before the full House.
    Mr. Chairman, I would like to conclude by thanking Chairman 
Young for working so hard to address the legitimate concerns of 
mine and many others who, like me, have a strong affection for 
our natural resources and work hard to assure they are 
protected. That work is not done, and I look forward to having 
the chance to engage the Interior Department in some productive 
discussions that lead to final passage and enactment of H.R. 
511. I further hope that the bill will see responsible 
consideration by the other body, so that we can give the 
President a bill he will gladly sign.
    First and foremost, any refuge reform bill must protect 
each of our 511 refuges and improve their management in a 
manner consistent with the purposes for which we have created 
these refuges and the refuge system. H.R. 511 meets that test, 
and it provides other provisions which will ensure a continued 
commitment by the Fish and Wildlife Service to species 
preservation and compatible public access and use throughout 
our National Wildlife Refuge System.

    Mr. Saxton. The Chairman now would recognize the ranking 
member if one were here. I now introduce our first panel of 
witnesses, our colleague, John Tanner, who is one of the prime 
original sponsors of H.R. 511. Mr. Tanner, please proceed.

   STATEMENT OF HON. JOHN TANNER, A U.S. REPRESENTATIVE FROM 
                           TENNESSEE

    Mr. Tanner. Mr. Chairman, thank you very much. And I want 
to thank Chairman Young and Representative Dingell for their 
leadership on this issue, as well. Thank you for holding this 
hearing and allowing a fellow Tennessean, Mr. Gary Myers, who 
is on a later panel and who is the Director of the Tennessee 
Wildlife Resources Agency, to participate today as well.
    Mr. Chairman, America's National Wildlife Refuge System 
includes 511 refuges and more than 92 million acres of land and 
water. Five of those refuges are not only in Tennessee, but can 
be found either in part or entirely in our congressional 
district of Tennessee. These refuges are a treasure trove for 
wildlife observation, environmental education, fishing, hunting 
and the restoration of threatened or endangered species. H.R. 
511 enhances the ability of the refuge system to meet those 
needs and for the first time calls for detailed conservation 
plans to be developed for each refuge over the next 15 years, 
the time Fish and Wildlife Service officials say they need for 
such purposes.
    Our bill also for the first time outlines six purposes for 
our refuge system, including the permission of wildlife-
dependent activity such as hunting and fishing, and may I 
emphasize, only as long as those activities are compatible with 
public safety and sound fish and wildlife management practices 
on each particular refuge emphasis. Already hunting is 
permitted on 283 refuges and fishing on 274. This is in no way 
a threat to the future viability of the refuge system.
    A vibrant system, on the other hand, is important to 
America's sportsmen and women, particularly since they have 
over the years put up roughly two-thirds of the funding used to 
purchase land for the refuge system through the purchase of 
Federal duck stamps, land and water conservation fund, user 
fees and so on.
    We passed this bill in the Congress, in the House last 
year, with wide bipartisan majority. As a co-chairman of this 
year's 105th Congressional Sportsmen Caucus, we would like to 
see that happen again.
    In no small part due to the leadership of yourself and 
Chairman Young, our refuge bill enjoys broad support among 
America's fish and wildlife managers and those in the sporting 
community, like Ducks Unlimited, the American Sportfishing 
Association and Waterfowl USA.
    At this point I would like to ask that my full statement be 
included in the record. Thank you all once again for your 
attention to this matter.
    [Statement of Hon. John Tanner follows:]

  Statement of Hon. John Tanner, a U.S. Representative from Tennessee

    Ladies and gentlemen, members of the Committee, 
distinguished guests, I want to thank everyone for the time and 
interest you all have dedicated to the future of our National 
Wildlife Refuge System.
    Thank you as well for allowing me the opportunity to 
express my support for the future well being of our National 
Wildlife Refuge System. Representatives Don Young of Alaska, 
John Dingell of Michigan, James Saxton of New Jersey and myself 
introduced H.R. 511, The National Wildlife Refuge System 
Improvement Act of 1997 because we believe this resource must 
be conserved for future generations of wildlife enthusiasts. 
The leadership of Chairmen Young and Saxton on this bill and 
other issues is to be applauded. What's more, I want to thank 
Gary Myers, the director of the Tennessee Wildlife Resources 
Agency, for taking the time to join me here today. Mr. Myers, 
like most of us, is an avid sportsmen concerned about the 
future of not only our refuge system but our natural resources 
in general.
    Nearly 10 decades ago (1903), President Theodore Roosevelt, 
a well known sportsman, created America's National Wildlife 
Refuge System. It's been more than three decades since we last 
examined the way we manage and conserve the more than 92 
million acres in 511 national wildlife refuges that make up our 
nation's refuge system.
    America's sportsmen and women have a vested interest in the 
future and well-being of our refuge system since they have 
contributed roughly two-thirds of the funds used to acquire 
land in our refuge system through the purchase of Federal Duck 
Stamps, entrance fees, and other sportsmen's funds. As hunters, 
anglers, conservationists, ornithologists, wildlife 
enthusiasts, and citizens in general, we know the value of the 
refuge system as a natural resource and we will continue to 
play a leading role in the conservation, preservation, and 
management of that invaluable natural resource.
    In Tennessee, we have five National Wildlife Refuges: The 
Hatchie National Wildlife Refuge, The Tennessee National 
Wildlife Refuge, Cross Creeks National Wildlife Refuge, The 
Reelfoot and Lake Isom National Wildlife Refuge, and The 
Chickasaw National Wildlife Refuge, which just received U.S. 
Migratory Bird Conservation Commission funds to acquire 437 
additional acres. These wildlife refuges are in the heart of 
the Mississippi Flyway and are either in part or entirely in my 
congressional district.
    So I don't have to look far to see the value of this 
resource to our people. Tennesseans can hunt and fish at every 
one of our refuges. In addition to attracting migratory 
waterfowl, all five refuges offer some of the finest turkey, 
deer, and small game hunting in the state. We have Bald Eagles 
nesting around Reelfoot Lake, which was created in 1811 and 
1812 by two earthquakes. Down at the Hatchie National Wildlife 
Refuge, Marvin Nichols is pushing a program called Project Fish 
to promote fishing among disabled and elderly citizens that is 
spreading beyond West Tennessee. It is a program aimed at 
developing the kinds of access these anglers need to not only 
continue fishing, but possibly to begin participating for the 
first time in this American tradition. This is one stop on the 
Hatchie Refuge's environmental education tour. Marvin Nichols 
has marshalled the resources only possible through a public 
private partnership to promote Project Fish and make it work 
for our citizens.
    Knowing all of that, it is my view that this bill is needed 
to focus on the future of our refuge system so that our 
children's children will be able to benefit from this resource 
much the same way we have benefitted. It is the first 
significant reform since the enactment of the National Wildlife 
Refuge Administration Act of 1966, which was written by our 
colleague Representative John Dingell of Michigan. Mr. Dingell, 
whose father was the driving force behind the Dingell-Johnson 
Wallop-Breaux sport fishing trust fund, knows the value of our 
natural resources and the contributions America's sportsmen and 
women make to preserving and conserving that resource. His 
knowledge and experience is invaluable.
    So when Messrs. Young, Dingell, and Saxton, introduced this 
bill two years ago, The Congressional Sportsmen's Caucus was an 
early proponent because of the focus for the first time on 
system-wide requirements for the development of conservation 
plans and the delineation of a consistent set of purposes for 
our refuge system. As a co-chairman of The Sportsmen's Caucus, 
I can say today the Caucus is again joining other organizations 
including the International Association of Fish and Wildlife 
Agencies, Ducks Unlimited, Quail Unlimited, Waterfowl U.S.A., 
the American Sportfishing Association, the Wildlife Legislative 
Fund of America, the North American Waterfowl Federation, 
Safari Club International, and many others, who support the 
legislation's goals. Indeed, the measure was approved in the 
House last year with broad bipartisan support by a vote of 287 
to 138.
    The Young-Dingell-Saxton-Tanner National Wildlife Refuge 
System Improvement Act of 1997 will bring some needed focus to 
ensuring a bright future for America's 511 refuges. I would add 
here that I believe President Clinton took a positive step with 
the executive order he issued this past spring. However, little 
certainty is ensured with an executive order that can be 
reversed over night. Therefore, the need for this legislative 
step continues to exist.
    Right now, detailed conservation plans are not required on 
our nation's refuges. This bill requires refuge managers for 
the first time to develop detailed conservation plans for their 
refuges and gives them the time and flexibility to do this in 
ways that will most benefit each individual refuge.
    H.R. 511 also for the first time sets a list of purposes 
for our refuge system. First, the refuge system must be managed 
as a national network of lands and waters designed to conserve 
and manage fish, wildlife, plants, and their habitats. Second, 
it must be a tool to restore and recover threatened or 
endangered species. Third, we must abide by our obligations 
under international treaties relative to the conservation of 
fish and wildlife. Fourth, our refuge system must be managed to 
protect and conserve migratory birds and waterfowl. Fifth, it 
must be used as a resource to protect marine mammals and 
interjurisdictional fish species. And finally, it should be 
managed to provide opportunities for compatible wildlife 
dependent activities including hunting, fishing, wildlife 
observation, and environmental education.
    Today, hunting is already permitted on 283 national 
wildlife refuges, and fishing is permitted on 274 national 
wildlife refuges. This is all done considering public safety 
and sound fish and wildlife management practices, which 
America's 15 million hunters and 30 million anglers support.
    We statutorily define compatible use using the same 
definition the U.S. Fish and Wildlife Service has relied upon 
for decades. H.R. 511 calls for hunting and fishing to be 
permitted on newly acquired refuges until and unless a finding 
is made that these activities are inconsistent with public 
safety, sound fish and wildlife management, or the overall 
purpose of the refuge. It also gives the Interior Secretary the 
authority to halt any recreational use at any time if it is 
found to be inconsistent with the management of the refuge.
    The legislation codifies the President's Executive Order 
issued on March 25, 1996, regarding the National Wildlife 
Refuge System. And it requires the development of conservation 
plans for each of America's 511 wildlife refuges within 15 
years, which is the time Fish and Wildlife Service managers 
have said they need to complete such an ambitious task.
    Before I close I want to mention a few things that this 
bill does not do.
    First, it does not permit hunting and fishing on every 
national wildlife refuge. These activities must be deemed 
compatible with the management of each individual refuge and 
sound fish and wildlife management practices. No one believes 
you should necessarily be allowed to hunt in the John Heinz 
National Wildlife Refuge that is inside Philadelphia's city 
limits.
    Second, it does not effect local, state, or federal water 
rights and it does not limit the federal government Is ability 
to secure water for a refuge.
    Third, it does not facilitate nonwildlife-denendent 
activities like grazing, mining, jet-skiing, or oil and gas 
development.
    Fourth, it does not allow the use of unapproved pesticides 
or permit the commercialization of our treasured wildlife 
refuge system.
    And finally, it does not prevent the U.S. Fish and Wildlife 
Service from acquiring new lands for the refuge system, nor 
does it increase or decrease the size of any existing refuge 
unit.
    More than a year ago I asked Gary Myers and his staff at 
the Tennessee Wildlife Resources Agency, one of America's 
premiere fish and wildlife agencies, to review the refuge bill. 
When he wrote to me after the review, he told me, ``It would be 
extremely beneficial for Congress to identify wildlife-
dependent recreation, including fishing and hunting, as an 
objective of the Refuge System. We feel this legislation will 
address important issues which will provide direction for the 
operation of our National Wildlife Refuge System.''
    I could not have said it better. We have the finest 
collection of natural resources within America's National 
Wildlife Refuge System. This bill will ensure the collection of 
lands and waterways continues to be the finest in the world.
    Iwould urge my colleagues on the committee to favorably 
report this bill. What's more, I would urge my colleagues in 
The Sportsmen's Caucus specifically and the House generally to 
continue their support of the measure and I look forward to its 
passage in the House this year with the same broad bipartisan 
support it enjoyed last year.
    Finally, Chairman Saxton, Chairman Young . . . your 
leadership on this issue cannot be overlooked or overemphasized 
in this process. The work that both of you as well as Mr. 
Dingell have done to preserve our refuge system for future 
generations is to be applauded not only because it is important 
to protect this resource, but also because it preserves the 
legacy of President Teddy Roosevelt who had the vision and saw 
the need for such a treasure in the first place.
    I would be remiss if I did not also recognize the work of 
Harry Burroughs, the Wildlife, Fisheries and Oceans 
Subcommittee's staff director.
    Thank you for allowing me to participate in today's 
hearing.

    Mr. Saxton. Thank you, Mr. Tanner. I don't believe any of 
the Members have questions at this point, unless I am wrong. We 
thank you very much for coming to support the bill, which 
several of us here have cosponsored.
    Mr. Tanner. Thank you, Mr. Chairman. May I once again thank 
you for your time and attention to this matter. And I am glad 
to see your ranking member showed up.
    Mr. Saxton. He is a great American, too.
    Mr. Tanner. He adds a lot to the dais, I know.
    Mr. Abercrombie. Thank you, Mr. Tanner. It is always a 
pleasure to see you. I am glad you could take out time from 
your very busy schedule, your more arduous duties, to come over 
here and spend a little time with some of us lesser mortals.
    Mr. Tanner. Always a pleasure. Thank you.
    Mr. Saxton. We are going to move on, thank you very much. 
We are going to move now to our next panel. And of course if 
Secretary Babbitt would come forward. And when you are ready, 
Mr. Secretary, we will be more than happy to hear your 
testimony. I would just like to say, Mr. Secretary, a special 
welcome to you. I know how hard you work at your job, and I 
would just say that I know this is in some quarters a 
controversial bill. And it reminds me of four years ago when 
President Clinton was elected. The reporters all called and 
asked well, you served with President Reagan and President 
Bush, how do you suppose it will be serving with a Democrat in 
the White House. And I said well, it is my job to try to find 
areas where we can agree. So I hope that this is one of the 
areas where we can find enough provisions in common, so that we 
can have a meaningful wildlife refuge bill. So, sir, if I may 
turn to you at this point for your testimony.
    Mr. Abercrombie. Mr. Chairman, just before the Secretary 
begins, may I ask unanimous consent to enter into the record a 
statement by the ranking member, Mr. Miller, on H.R. 511 and 
H.R. 12?
    Mr. Saxton. Without objection.
    Mr. Abercrombie. Thank you very much.
    [Statement of Hon. George Miller follows:]

 Statement of Hon. George Miller, a U.S. Representative from California

    Mr. Chairman, I am pleased that you have scheduled this 
hearing to discuss two bills affecting wildlife refuges. I 
would like to bring to your attention another bill that I 
believe will make an important contribution to the debate about 
the future of our wildlife refuges. As you may be aware, 
yesterday I introduced the Theodore Roosevelt Wildlife Legacy 
Act. Unlike H.R. 511, my bill clearly reaffirms President 
Roosevelt's original intent in establishing our first wildlife 
refuge in 1903--to conserve fish and wildlife for the enjoyment 
of present and future generations.
    I oppose H.R. 511 because it would fundamentally alter the 
purpose and undermine the conservation mission of the National 
Wildlife Refuge System. In the last Congress, a vote against a 
very similar bill, H.R. 1675, was counted by the nonpartisan 
League of Conservation Voters as one of the key environmental 
votes of 1996.
    H.R. 511 would undermine wildlife conservation on our 
refuges by elevating hunting, trapping, and other forms of 
recreation to a purpose of the System co-equal to conservation. 
But Members and the public should not be led to believe that 
this is a philosophical debate about whether hunting should be 
a purpose of the Refuge System, because H.R. 511 would also 
restrict the ability of the wildlife management professionals 
at the U.S. Fish and Wildlife Service properly to manage 
recreational activities. Hunting, if properly controlled, is an 
important tool in the kit of the wildlife manager. However, if 
not managed properly, it can rapidly deplete wildlife 
populations.
    The Theodore Roosevelt Wildlife Legacy Act, on the other 
hand, reaffirms conservation as the purpose of the Refuge 
System and establishes an objective process for evaluating 
whether recreational activities are compatible with wildlife 
conservation. It recognizes wildlife dependent recreation, 
including wildlife observation, hunting, and fishing, as 
priority uses of the System, but ensures that they are 
subordinate to conservation goals.
    While the National Wildlife Refuge System provides world 
class opportunities for hunting and other outdoor recreation, 
which I support, the approach taken in H.R. 511 is dead wrong. 
The overwhelming majority of visitors to our wildlife refuges 
come not to hunt or trap, but to observe and enjoy nature in 
other ways. Yet those who do wish to hunt and fish enjoy broad 
access to refuge lands; in fact, over half of all refuges 
(comprising more than 90% of the System's acreage) already 
permit these recreational uses.
    To ensure that all Americans continue to get a fair return 
on their investment in the National Wildlife Refuge System, all 
activities on wildlife refuges must be held to the same 
standard. Anything less serves special interests at the expense 
of the greater public good. H.R. 511 is a solution in search of 
a problem, and that solution will undermine 94 years of fish 
and wildlife conservation.
    In 1903, President Roosevelt had the foresight to set aside 
a place--a small place--where wildlife came first. We should 
maintain a place in our increasingly crowded world where there 
is room for people, but where wildlife comes first. That place 
is the National Wildlife Refuge System and we should keep it 
that way.
    I look forward to hearing the testimony today from our 
distinguished witnesses.

     STATEMENT OF BRUCE BABBITT, SECRETARY OF THE INTERIOR

    Mr. Babbitt. Mr. Chairman, committee members, I appreciate 
the opportunity to appear before this Subcommittee to testify 
on H.R. 511 and H.R. 512. I would like to state at the outset 
in a spirit of frankness and candor that I am strongly opposed 
to both of these bills, and I would be compelled to recommend 
that the President veto either one or both if they are enacted 
in their present form. But let me also say that I have spoken 
in some length to Congressman Dingell yesterday morning, and I 
promised him that in his absence as he goes to Michigan with 
the President that I would explain my objections carefully to 
this committee and that I would do that in hopes that, as 
Chairman Saxton suggests, that perhaps we can eventually work 
out our differences and in fact produce legislation that would 
strengthen and improve our wildlife refuge system.
    The National Wildlife Refuge System is the world's greatest 
system of lands dedicated to the conservation of fish and 
wildlife. It is a system uniquely American in its origins, 
founded on the notion that in a country as bountiful, diverse, 
and large as ours there ought to be special places that are set 
aside exclusively for the conservation of our common heritage 
of fish and wildlife and natural resources. These, of course, 
are the National Wildlife Refuges. Unlike other areas where 
wildlife is shunted aside by the relentless forces of the 
bulldozer, the chain saw, and the plow, the conservation of 
wild creatures, large and small, reigns supreme in wildlife 
refuges. In these refuges conservation needs of wildlife are 
paramount.
    The central, over-arching purpose of this system is, and 
should be, the conservation of fish and wildlife and their 
habitat. If we do that job well, then there will be ample 
opportunity for compatible recreational uses which depend on 
diverse and abundant wildlife. Wildlife conservation, Mr. 
Chairman, is our purpose. It has been for 100 years. It was 
when Theodore Roosevelt established Pelican Island and it has 
been ever since. Compatible recreational uses are the benefits 
that flow from our success in carrying out the over-arching 
purpose of the system.
    Now I emphasize this distinction, because this is where 
H.R. 511 and I part company. The bill scrambles the crucial 
distinction between purpose and use. It has been at the heart 
of the refuge philosophy ever since the days of Theodore 
Roosevelt. It does that by mixing hunting and fishing, wildlife 
observation, and environmental education as ``purposes'' rather 
than what they truly are, which is uses of the refuge system. 
Section 4(a)(3) of this bill effectively elevates recreational 
uses to mandatory parity with the traditional over-arching 
conservation purpose of the refuge system.
    What are the implications of that? Well, let me explain. 
This bill, as I read it, would give the groups mentioned in 
Section 4(a)(3)--that is hunting, fishing, wildlife 
observation, and environmental education--it would give all of 
those groups a statutory right to sue each other for materially 
affecting the ability of any of those other users to use a 
refuge. In other words, under this bill a bird watcher now has 
a statutory right to go to court and to sue a duck hunter under 
Section 6, simply claiming that the hunter is materially 
interfering with the bird watcher's right, which is a protected 
purpose of the refuge under Section 3.
    Similarly, under this bill the duck hunter now has the 
statutory right to sue, to go to court, to stop children from 
participating in any environmental education program that might 
in any way materially affect the rights conferred by this bill 
on the duck hunter. The duck hunter could sue bird watchers 
from observing migratory birds on the refuge. Hunters now have 
the right to sue fishermen. Fishermen now have a right to sue 
hunters. The combinations are nearly as endless as the lawyers 
looking for work.
    Now I am quite certain, Mr. Chairman, that you and the 
members of this committee did not intend this result. And I 
don't think the drafters did either, but the fact is that it 
illustrates a fundamental defect of this bill by attempting to 
deprive refuge managers of sound discretion and to substitute a 
detailed system of statutory micro management. What it does is 
imports lawyers and judges ever more deeply into the management 
of our national wildlife refuge system. Now I should also note 
that Section 6, which provides that--and I quote. ``When 
managed in accordance with principles of sound fish and 
wildlife management,'' hunting, along with fishing, wildlife 
observation, and environmental education, in a refuge is 
``generally a compatible use.''
    Now when you take that phrase with the definition of 
management in Section 3, this section could amount to a 
statutory presumption that all wildlife refuges shall be open 
to hunting, including the John Heinz Wildlife Refuge in the 
city limits of Philadelphia, Pennsylvania, including the 
Balcones Refuge inside Austin, Texas, including Rancho San 
Diego National Wildlife Refuge in the city limits of the city 
of San Diego.
    Now undoubtedly some will cast H.R. 511 as a litmus test of 
support for hunting and fishing, but let me say to you clearly 
this debate isn't about hunting or fishing on wildlife refuges. 
It is about two fundamental contrasting philosophies on how we 
are going to manage these wildlife refuges. And it is in that 
respect that I must remain true to the tradition of Theodore 
Roosevelt and the sportsmen and sportswomen who have helped to 
build this system.
    Mr. Chairman, if you were to suggest to me that bird 
watching should be a statutory purpose of the National Wildlife 
Refuge System, I say no. Wildlife photography, I say no. 
Conservation education, I say no.
    It is not because I am opposed to any of these uses. To the 
contrary, I enthusiastically support all of them, including 
hunting and fishing. But I believe that the statutory purpose 
of the refuge system is, and must remain, singular, the 
conservation of fish, wildlife and their habitat.
    Now, incidentally, this is not a new debate. Back in 1968 
under one of my predecessors a departmental committee on 
wildlife management, now known in the history books as the 
Leopold Committee, named after its Chairman, Starker Leopold, 
addressed this same issue. And I would like to just quote from 
their conclusion, because it rings true today as it did in 
1968. And I quote. ``We concur that recreation on the refuges 
should in all cases be secondary to the primary purpose of 
management for wildlife enhancement, and under no circumstances 
should general recreation be permitted to interfere with this 
primary dedication.''
    Now the advice of the Leopold Committee has been followed 
by the department ever since. And I would like to just point to 
the results of this management success, because as a result of 
that success wildlife-dependent recreation like hunting, bird 
watching and fishing is flourishing in our refuges. Among our 
509 refuges, 285 allow hunting; 276 allow fishing. More refuge 
lands and waters are being opened to these uses each year.
    Let me give you just one example. Last year, 1996, the list 
of refuges opened to recreational fishing grew by 12. New 
hunting programs were begun on nine refuges. That is just last 
year. Since I became Secretary of the Interior, 24 new refuge 
hunting programs have been initiated. Also in the past year the 
Fish and Wildlife Service has begun new refuge partnerships 
with groups as diverse as the National Audubon Society, the 
Safari Club International, the North American Photography 
Association. These agreements will directly support management 
activities. They will increase volunteerism and, of course, 
promote compatible recreational use.
    The Service has also embarked on an ambitious Friends 
Initiative in cooperation with the National Wildlife Refuge 
Association. These efforts will provide a framework for 
interested private citizens to become involved and to become 
active participants in refuge management.
    Mr. Chairman, just a word about the President's 1998 
budget. In our budget we have asked resources for the Service 
to develop comprehensive management plans for all of our 
refuges within the next eight years. This effort will obviously 
involve unprecedented numbers of Americans in the management of 
our refuge lands.
    Mr. Chairman, we have also worked hard to eliminate 
unnecessary impediments to allowing compatible wildlife-
dependent recreation within refuges. For example, we have 
addressed an issue which you raised and called to our attention 
in a prior hearing. I think it was last year. Previously when 
new areas were added to the refuge system they were often 
closed to public use for long periods of time while the Fish 
and Wildlife Service completed planning for the area.
    Now Mollie Beattie made a commitment to you that we would 
address that, because we understood the dislocation caused by 
terminating recreational uses for this period of time only to 
bring them back up after a long, elaborate process created a 
lot of misunderstanding and really wasn't necessary. So we 
published a new policy requiring preacquisition consideration 
of existing recreational uses. And through this policy the Fish 
and Wildlife Service will make interim determinations of 
compatibility for ongoing recreational uses prior to the area 
being acquired for the refuge system. And that in turn will 
avoid the immediate closure of refuge areas upon acquisition 
and will inform the public prior to acquisition as to which 
wildlife-dependent recreational uses will be allowed to 
continue on newly acquired lands.
    As in other areas of our work in the department, this 
amounts to a no-surprises policy. It makes good sense and, I 
think, ultimately generates good will and makes good neighbors.
    I could talk about many other positive things that are 
happening within the refuge system, new and enhanced 
partnerships, a renewed commitment to strengthening the 
system's biological management, the continued elimination of 
incompatible uses and so on.
    These things didn't just happen. On March 25, 1996, 
President Clinton signed Executive Order 12966 on Management 
and General Public Use of the National Wildlife Refuge System. 
This Executive Order, the first one ever issued regarding the 
management of the refuge system, establishes a clear and 
singular mission for the refuge system. And I quote, ``to 
preserve a national network of lands and waters for the 
conservation and management of the fish, wildlife, and plant 
resources of the United States for the benefit of present and 
future generations.'' To carry out this mission and principles, 
the Executive Order has a detailed list of directives, which 
are in fact being implemented.
    Now one of these directives particularly relevant to our 
deliberations today is in the area of public use, where the 
Executive Order identifies four specific classes of wildlife-
dependent uses as priority public uses for the refuge system. 
They are hunting, fishing, wildlife observation and 
photography, and environmental education and interpretation. 
Where compatible and in the public interest, refuge managers 
are instructed to provide increased opportunities for these 
uses and to enhance the attention they receive in refuge 
management and planning. Now let me, if I may, briefly compare 
this conceptual approach in President Clinton's Executive Order 
with the approach taken in H.R. 511.
    The Executive Order maintains the crucial distinction 
between wildlife conservation as refuge purpose and compatible 
wildlife recreation as priority public use. It articulates a 
singular and clear mission for the system, conservation. But it 
recognizes that the use of our refuge lands and waters, to the 
extent that such use is proper and allowable, shall be reserved 
first to those recreational activities which depend and thrive 
on abundant populations of fish and wildlife. The obligation of 
the refuge manager is thus made clear; wildlife conservation is 
foremost. Where recreational activity is appropriate, let 
compatible wildlife-dependent recreation, including hunting and 
fishing, come first.
    My earlier comments illustrate how this concept is in fact 
working on the ground level. And I am submitting with this 
testimony a report summarizing progress over the first year of 
the Executive Order's implementation.
    [Statement of Bruce Babbitt may be found at end of 
hearing.]
    Mr. Saxton. Mr. Secretary, I wonder if we could ask Mr. 
Young if he could ask his questions. He has another obligation 
at 11. I wonder if we could ask you to summarize the rest of 
your testimony in a minute or so.
    Mr. Babbitt. Mr. Chairman, I would be happy to yield to Mr. 
Young right here. Thank you.
    Mr. Saxton. Thank you, Mr. Secretary.
    Mr. Young. Thank you.
    Mr. Saxton. Let me--before Mr. Young begins, let me ask 
unanimous consent that Mr. Pombo be permitted and welcomed to 
the Subcommittee this morning and that he be permitted to ask 
questions.
    Mr. Young, would you like to----
    Mr. Young. Thank you, Mr. Chairman. And I am going to have 
Mr. Pombo ask some of my questions. I have to go over to the 
Budget Committee and justify our existence and pay the salaries 
of our staff. Without doing that, I am sure, something would 
really occur. That is the reason I have to go.
    Mr. Secretary, unfortunately, I had hoped that you would 
have come in support of this legislation or had some 
suggestions. I understand your reasoning. One of the things, 
though, that bothers me, is on what authority do you think the 
special interests could sue one another or the U.S. Government 
under this bill? You cite that quite heavily. Is there any case 
law or precedent that has occurred? And if so, would you 
suggest legislation or language that would prevent special 
interests from getting into a dog fight over the refuge lands.
    Mr. Babbitt. Well, Mr. Chairman, the problem, as I 
explained, is that the groups accorded priority use, hunters, 
fishermen, wildlife observation, whatever that language is, are 
all accorded a pre-

ferred right, but then if you go to Section 6, those rights are 
asserted only to the extent that they do not materially 
interfere with the right of another preferred class whose use 
is defined as a purpose of the refuge system.
    Mr. Young. OK, now you----
    Mr. Babbitt. That means they can all sue each other.
    Mr. Young. I am about out of time. What I am suggesting, 
though, why--and I think we can. I think the committee would 
agree we can avoid those lawsuits.
    Mr. Babbitt. Well----
    Mr. Young. We can write it in there so they can't sue, 
because the purpose of this bill--frankly, this would never 
have come up if it hadn't been for a few refuges that the 
refuge manager decided on his own, without justification, that 
hunting and fishing was not to be allowed. And my purpose in 
this legislation is--and I have told you this before, is to 
maintain the strength and the vigor of the refuge system. You 
will not support it with bird watchers. You will not support it 
with those that believe hunting and fishing is not compatible, 
because we created those refuges. That is where Mr. Dingell and 
I agree. We created them.
    And we have got to somehow put in legislation, not at your 
discretion, not at your management discretion, that the 
priority use--unless there is another reason, that hunting and 
fishing is the action of the refuge. Now you can shut it down 
right here on page 13. The Secretary shall permit fishing and 
hunting on refuges if the Secretary determines that the 
activities are consistent with the principle of sound fish and 
wildlife management, are compatible with, consistent with, the 
purpose of the system under the subsection which excludes those 
areas such as San Diego and downtown New York. You have that 
authority, but the priority reason for this legislation is 
basically like your Executive Order. But that is at your 
discretion.
    Now why couldn't we write into this legislation that there 
can't be lawsuits?
    Mr. Babbitt. Mr. Chairman, with all due respect, the 
lawyers that drafted this bill have made a fundamental mistake. 
They want a statute which sets out statutory micro management 
of the refuges. There is no way that you can prevent that from 
degenerating into litigation. And we are going to have judges 
sort of----
    Mr. Young. All due respect----
    Mr. Babbitt. [continuing]--running these refuges.
    Mr. Young. All due respect, we can write this legislation 
if you will help us, advise us, because that is primarily your 
reason for objecting to it, so lawsuits cannot take place and 
still recognize the value of the refuge. I mean, I--when I look 
what happened in Oklahoma, it was a classic example of that. 
That is a ridiculous situation when that was supported by the 
people there and then by arbitrary decision the Fish and 
Wildlife Service manager said no. We finally removed that 
manager, by the way. Mollie Beattie helped achieve that. But I 
am saying that is an incorrect position to take and we are 
trying to avoid that in the future.
    Mr. Babbitt. Mr. Chairman, if I may, two thoughts. First of 
all, look at the numbers of refuges that have been opened. 
Secondly, I sat in several Congressmen's offices with Mollie 
Beattie dealing with that refuge issue. Now with all due 
respect, that is an appropriate way to deal with a refuge 
dispute. If a Congressman representing a district says I 
believe a wildlife manager is abusing his discretion, that 
Congressman ought to call the Secretary of the Interior and the 
Director of the Fish and Wildlife Service over to his office, 
and keelhaul them until one side or the other prevails. That is 
what this process is about in this town.
    Mr. Young. Well, see, we disagree on that. Our refuges were 
set up by acts of Congress with the support of the fishing and 
hunting groups, you know, and I keep hearing people refer to 
Teddy Roosevelt. I have got a picture of Teddy Roosevelt 
standing over one of your endangered rhinos now. And his 
statement was in civilized and cultivated countries wild 
animals only continue to exist with all that will be preserved 
by the sportsmen.
    [The picture may be found at end of hearing.]
    Mr. Babbitt. I agree with you.
    Mr. Young. I am tired of hearing Teddy Roosevelt being cast 
as the white knight in shining armor, as if he never 
participated in the actual harvesting or management of fish and 
wildlife. And I don't think it should be at the discretion of 
some individual that is a government appointee or a 
professional who says I don't like hunting and fishing and he 
can shut it down. In the meantime we have got a year delay.
    We have got a picture of the founder of the Audubon 
Society, John James Audubon, down in the White House. We have 
got him standing there with a nice flintlock rifle across his 
arm, because he was a hunter.
    [The picture may be found at end of hearing.]
    Mr. Young. But for some reason we are getting this attitude 
in hunting--you say you support it. Maybe you do. I am not 
sure. But I am a little bit convinced that some of your 
professional people don't think--I have had people on this 
committee say that we ought to save all the fish and wildlife 
on these refuges because the refuges are for fish and wildlife, 
period. They weren't created for that. They were created for 
fish and wildlife, but with the support and the involvement of 
man. And that is all we are trying to do in this legislation.
    And we will pass it. You may recommend a veto, but it will 
pass, I think, by about 300 votes. And we will see what happens 
as far as a veto.
    I don't have much more time, Mr. Chairman. I will ask Mr. 
Pombo, if he would, to ask my remaining questions because he 
has some time. And I will give you the rest of my time, Mr. 
Pombo.
    Mr. Saxton. The gentleman from California.
    Mr. Abercrombie. Mr. Chairman, I will yield time to Mr. 
Pombo to finish whatever questions Mr. Young needed to have 
asked.
    Mr. Pombo. Well, I thank you. I thank you, the ranking 
member, for yielding. Mr. Young had a number of questions, Mr. 
Secretary, that he wanted answers to.
    In September of '94 when you appeared before the 
Congressional Sportsmen's Caucus, and in response to questions 
from Representatives Billy Tauzin and Bart Stupak, you stated 
that wildlife refuge units ought to be open for hunting and 
fishing in the absence of a good reason to close them. H.R. 511 
includes exactly that kind of presumption. Do you still support 
building that kind of presumption into the law?
    Mr. Babbitt. Not in the language of this bill.
    Mr. Pombo. How would you do it?
    Mr. Babbitt. In language which begins with the President's 
Executive Order of last year.
    Mr. Pombo. That begins with that. How would you complete 
that?
    Mr. Babbitt. Well, let us look at it. Let me see if I can 
find it.
    The President's Executive Order makes the distinction that 
I talked about in my testimony. And beneath the definition of 
the purpose of the refuge it has guiding principles and 
directions. Now, let us look through those. First is public 
use. It provides important opportunities for hunting and 
fishing. Now let us go to directives, because that is the third 
tier. Under directives, A, it says recognize compatible 
wildlife-dependent activities, including hunting and fishing; 
B, provide expanded opportunities for these priority public 
uses; C, ensure that such public priority uses, including 
hunting, receive enhanced attention in planning and managing.
    Mr. Pombo. Just to make that clear, all of the directives 
that you are stating that were in the Executive Order are 
included in the bill.
    Mr. Babbitt. Well, then I support those if they are 
included in this form. I supported them when they were put in 
the President's Executive Order. Matter of fact, I even had a 
hand in writing them, therefore I support them.
    Mr. Pombo. The dispute or the part that you don't like, 
then, is over the purposes section of the bill, then. And it is 
not over the directives. It is not over the bulk of the bill. 
It is over the purposes section of the bill.
    Mr. Babbitt. Mr. Pombo, when I spoke with Congressman 
Dingell yesterday, he said to me can we find common ground. And 
what I said to him I say to you. I said, Mr. Congressman, I 
believe that we ought to try, but I have two fundamental 
objections to this bill. One is, as I have explained, this 
business of departing from wildlife conservation as the central 
purpose of wildlife refuges. The President's order makes that 
distinction, and I think it is important. The second one is 
this, conferring legal rights on all the priority users to file 
lawsuits and let the courts determine who has which priority 
over other users whenever there is a conflict. I think that is 
really wrong headed.
    Mr. Pombo. In the bill, the primary purpose of the fish and 
wildlife system, it states the overall mission of the system is 
to conserve and manage fish, wildlife, and plants and their 
habitats within the system for the benefit of present and 
future generations of the people of the United States. And then 
there are six purposes which follow that which I believe is 
where you object to that, but it does say that the overall 
mission--I think you would agree with that part of it.
    Mr. Babbitt. Well, in fact some of that language is taken 
directly from the President's Executive Order.
    Mr. Pombo. Correct.
    Mr. Babbitt. The problem is that this thing is an omelet. 
It scrambles very badly. And the reason it does that is because 
when people go to court, Mr. Congressman, over this bill, 
everybody is going to move right past the mission statement. 
Mission statement is really sort of like a statement of 
legislative intent that you always put in front of bills. 
Judges never pay any attention to that. They go to the hard 
language. And the hard language is what you call purposes. And 
you mix--you know, you throw everything but the kitchen sink 
into your purpose section. And by doing that, you are giving 
them coequal priority as an initial presumption.
    Mr. Pombo. Are you in favor of limiting the citizen suits? 
Are you concerned about citizen suits in other areas under your 
jurisdiction as you are in this jurisdiction?
    Mr. Babbitt. No, the citizen suits are a legitimate part of 
this democracy, and, of course, you know, citizens should have 
access to the courts. All I am saying is I find it ironic that 
you are drafting a bill which is going to omit litigation by 
conferring statutory entitlements on duck hunters, hunters, 
wildlife observation, bird watchers, and photographers to sue 
each other because they are going to have a specific bill which 
says I am entitled to my use as a purpose of the refuge and 
anybody who materially interferes with my use is going to be 
subject to judicial injunction. That is what the bill says.
    Mr. Pombo. Mr. Secretary, I think you are--and I am not an 
attorney, but I think you are reading a lot more into that 
provision than is actually there. I think that there are 
specific things within a number of pieces of legislation which 
have resulted in citizen suits occurring. And I think that in 
this particular instance you are reading a little bit more into 
that part. I would like to move on, if we can.
    In the bill, it provides that the refuge unit should be 
open to fishing and hunting unless these traditional activities 
are inconsistent with the purpose of the specific refuge unit, 
inconsistent with sound principles of fish and wildlife 
management or inconsistent with public safety. Are these the 
kind of good reasons to close a refuge unit that you referred 
to in your caucus presentation? Can you support at least this 
section of H.R. 511?
    Mr. Babbitt. Well, frankly, Mr. Congressman, that section 
is all scrambled up, too, because it says inconsistent with the 
purpose. Then you have got to go back and read the six 
purposes. They are all poured into that segment, so, you know, 
it circles. The snake swallows its tail in that section.
    Now, the problem with the sound management is you have got 
to look at the definition of management in Section 3. And when 
you add it all up, it sort of circles right back to a statement 
that there is a presumption that hunting and fishing is to be 
allowed. And I don't think that is an appropriate way to manage 
a wildlife refuge, to set forth that kind of presumption.
    Mr. Pombo. In this particular section they are talking 
about the purpose of the individual wildlife refuge, and that 
is what they are referring to there. When you establish--
according to the provisions in this bill, when you establish a 
wildlife refuge and the management of that, it is at the 
Secretary's discretion. As the Chairman read to you from the 
bill earlier, the Secretary still has broad discretion in 
establishing what is a compatible use within each indi-

vidual unit. And what this is referring to is the individual 
management of that particular refuge.
    Mr. Babbitt. Mr. Pombo, there are two problems. One is that 
there is going to be litigation over the extent to which my 
discretion in an individual refuge is limited by the purposes 
which are set out at such length in that section. Secondly 
there is in Section 6 a presumption that hunting would be 
allowed. Now, will that lead to hunting in the John Heinz 
Refuge inside the city limits of Philadelphia? Well, maybe not, 
but I guarantee you there will be a lawsuit and a judge will 
finally be ruling on that, and I don't think that is a good way 
to run this system.
    Mr. Pombo. I don't believe that that would be a compatible 
use with that refuge, and I don't foresee any Secretary of the 
Interior ever finding that a compatible use, and I don't see 
any judge ever determining that that is a compatible use with 
that particular refuge, just as the other refuges that you 
mentioned that are within city limits or within urban or 
suburban areas. No one would ever find that that was a 
compatible use, so that is kind of just something that has been 
put out there as a scare tactic, and it really has very little 
to do with the management of our wildlife refuges.
    Mr. Babbitt. Mr. Pombo, I respectfully, completely 
disagree.
    Mr. Pombo. You believe that a Secretary of the Interior 
would find that hunting within those refuges would be a 
compatible use of that refuge?
    Mr. Babbitt. Well, this Secretary will not. What James Watt 
or his successors will determine, I think, is open to a 
considerable amount of discussion.
    Mr. Pombo. Did he propose using that as hunting within that 
wildlife refuge when he was Secretary of the Interior?
    Mr. Babbitt. I have no idea.
    Mr. Pombo. I think that is way out of line in terms of what 
we are talking about today.
    Another question that Mr. Young had was that America's 
anglers and hunters have been our nation's best supporters of 
the refuge system, contributing millions of dollars to land 
acquisition and operations of the refuges. Through this bill, 
we are seeking to recognize this contribution, provide the 
compatible wildlife-dependent recreation as a purpose of the 
refuge system, and protect these environmentally benign 
traditional activities from those who would protest that. Why 
are you opposed to affording the sporting community this 
recognition and legal protection?
    Mr. Babbitt. I agree with the first sentence of Mr. Young's 
question. Hunters and fishermen have been the single strongest 
constituency of the National Wildlife Refuge System for 100 
years. Now the reason I disagree with the second part is I 
don't see how you are helping hunters and fishermen by 
conferring on bird watchers a statutory entitlement to go to 
court to restrain hunting and fishing whenever it materially 
interferes with the rights of bird watchers.
    Mr. Pombo. I think----
    Mr. Babbitt. I don't think that is helping hunters at all.
    Mr. Pombo. [continuing]--we have an honest disagreement. I 
think that there--that the authors of the bill have a 
disagreement over that part of it. And it seems that your 
opposition to this bill is centered around that part. Maybe 
they can work with the attorneys to figure out a way to change 
your opposition.
    H.R. 511 outlines six purposes for the refuge system, 
conservation of fish and wildlife and related habitat; number 
two, to restore where appropriate fish and wildlife and related 
habitats; number three, to conserve migratory birds and 
fisheries; number four, to conserve and restore endangered 
species; number five, to fulfill conservation treaty 
obligations; and number six, to provide opportunities for 
compatible wildlife-dependent recreation. Are endangered 
species found within the 511 refuge units?
    Mr. Babbitt. Yes.
    Mr. Pombo. Are migratory birds found on all 511 units?
    Mr. Babbitt. No.
    Mr. Pombo. Do all 511 units have a direct relationship to 
our treaty obligations?
    Mr. Babbitt. Well, it depends upon--look, there are a lot 
of treaties. To the extent that migratory birds are found on 
all 511, I said no because you had said all. And, you know, 
migratory birds are found on most wildlife refuges, but whether 
they are found on all 511, I respectfully defer to 
knowledgeable people. Now to the extent that they are, 
obviously there are treaty obligations.
    Mr. Pombo. Are fisheries an important part of all refuge 
units?
    Mr. Babbitt. No.
    Mr. Pombo. If these----
    Mr. Babbitt. That is a lot of refuge units----
    Mr. Pombo. Yes.
    Mr. Babbitt. [continuing]--that don't have enough water on 
them to support a fish.
    Mr. Pombo. If these purposes are not applicable to all 
refuge units, should they be specified purposes in this or in 
any refuge bill?
    Mr. Babbitt. Well, let me just say that the public priority 
uses that are spelled out in the bill, uses, I think are 
absolutely appropriate. I agree with them.
    Mr. Abercrombie. Mr. Chairman, Mr. Pombo, with the vote on, 
the yielding of my time, do you suppose that we could perhaps 
have some of the other members ask some of these questions and 
we move on?
    Mr. Saxton. Well, let me interrupt for just--Richard, how 
many more questions do you have? One more question?
    Mr. Pombo. Yes.
    Mr. Saxton. Mr. Secretary, what is your time like, your 
requirement of time?
    Mr. Babbitt. Mr. Chairman, I am here at your disposal. I 
will be prepared to stay until sunset and beyond.
    Mr. Saxton. Well, I hope we don't do that. Mr. Pombo, do 
you want to conclude your questioning, then, prior to the time 
we go to vote?
    Mr. Pombo. Sure.
    Mr. Saxton. OK, thank you.
    Mr. Pombo. I have a final question here, Mr. Secretary, 
from the Chairman. Are you aware of these provisions in the 
bill, one, that nothing in this act shall affect any water 
right in existence on the date of the enactment of the act, and 
two, quantity on refuge units, nothing in this act shall affect 
any Federal or State law in existence on the date of enactment 
of this act regarding water quality or quantity?
    Mr. Babbitt. Yes.
    Mr. Pombo. Isn't it misleading to contend that H.R. 511 
would strip refuges of water rights?
    Mr. Babbitt. I would be happy to answer that in writing, 
Mr. Pombo. I do not believe that the language entirely disposes 
of this issue. I read the language. I recognize the intent of 
the draft. I am not certain that it achieves that affect. And I 
would like to explain that in writing, if I may.
    Mr. Pombo. All right, thank you, Mr. Chairman.
    [The following was received:]

                          Refuge Water Rights

    I did raise a concern regarding the Committee Report for 
the predecessor bill in the last Congress, H.R. 1675. In my 
letters to Chairman Young on that bill as reported, and as 
brought to the House Floor, I stated that Committee Report 
language could be interpreted as diminishing or eliminating 
refuge water rights.
    Subsequent to that, Chairman Young and Congressman Dingell 
held an extension colloquy during House consideration of the 
bill (April 24 Congressional Record, Page H3773) stating that 
this was not the intend and that the bill should not be so 
interpreted.
    That colloquy effectively resolved the issue insofar as 
H.R. 1675 was concerned. Since there has been no Committee 
Report on H.R. 511, the issue has not arisen, and I would 
strongly hope that in light of last year's Young-Dingell 
colloquy, it will not do so in the future.

    Mr. Saxton. Mr. Secretary and Mr. Pombo, it seems to me 
that there has been an expression on Mr. Young's part and on 
the Secretary's part and certainly on my part and, I think, Mr. 
Pombo's part that we would like to look at some of these issues 
to see if in fact there is common ground. We have got a bill 
which we can pass. The Secretary, I think, is serious about the 
veto. And it seems to me that perhaps outside of the forum of 
this hearing we could get together and talk about some of these 
issues and see if, in fact, it is possible to find common 
ground. And I don't know whether you are coming back after the 
vote, but if we could just proceed along keeping in mind that 
in the next several weeks that would be a step that I would 
like to see taken. Thank you.
    And we are going to go and vote on the journal, and I 
understand there is a five-minute vote after the journal vote, 
so we will probably be 20 or 25 minutes getting back here.
    [Recess.]
    Mr. Saxton. Hopefully that will be our last interruption of 
the day, as that was, I believe, the last recorded vote. We are 
going to proceed with questioning for Secretary Babbitt. And I 
would like at this point to call on Mr. Farr, a gentleman from 
California.

    STATEMENT OF HON. SAM FARR, A U.S. REPRESENTATIVE FROM 
                           CALIFRNIA

    Mr. Farr. Well, thank you very much, Mr. Chairman. I am 
pleased that we were able to have a little bit of a break, 
because I couldn't believe what I was hearing or reading as I 
sat here this morning. You know, we should pull ourselves away 
from the bill in front of us and just think about it, in 
America we have wildlife refuges. If you ask anybody in the 
country what that means, they'll probably say it is the same 
thing that the dictionary defines a refuge as, which is a place 
providing protection or shelter; a haven. You know, until I got 
elected to Congress I never knew that you could hunt on a 
wildlife refuge. I don't think most Americans know that. And I 
think they would be appalled to find out that you can. And if 
indeed that is the purpose, then we ought to strike the name 
refuge, because people do believe it is a place to provide 
protection and shelter.
    As I read the bill, what struck me is that this bill really 
does elevate a special interest to give it a legal standing, 
and I would argue that it is perhaps an even stronger legal 
standing than the other purposes for which refuges were 
created, which is essentially, you know, to enhance wildlife 
opportunities. I have got into this issue on the water issues 
in the Central Valley, which Mr. Pombo knows a lot about, 
because I have been trying to protect the wetlands in the 
Central Valley. And it is interesting that the Oregon and 
Washington and Canadian legislators and the Mexican legislators 
are very much interested in protecting that area, because it is 
their game as well as ours that lands on those refuges.
    What I also am surprised to have this Congress not realize 
is that if you read some of the books of what is happening in 
America--Megatrends is a good example--what they will tell you 
is that the biggest increase in outdoor recreation is what they 
call watchable wildlife. There are more people watching 
wildlife than are watching national sports, a remarkable 
figure.
    Mr. Saxton. That is because they are watching C-Span.
    Mr. Farr. So to take this legislation, and as I read it--I 
am not a lawyer either, Mr. Pombo, but as I read it, it states 
that one of the purposes, the new purpose of the system, is to 
provide opportunities for compatible uses of refuges consisting 
of fish--I am reading on page 7, line 10, of fish and wildlife-
dependent recreation, including fishing and hunting. This 
overrides what the 1966 legislation intended to do, which was 
to manage it for conservation and wildlife. And then when you 
get into other parts of the bill, you essentially see that on 
page 13 and line 3, that the Secretary shall permit fishing and 
hunting on the refuge if the Secretary determines that the 
activities are consistent with the principles of sound fish, 
wildlife, and management and are compatible and consistent. And 
then it goes on on page 16, line 7, to say that these are 
generally compatible uses.
    So essentially you have defined it in different parts of 
the bill that there shall be fishing and hunting on these 
refuges. And the question I have, is whether the refuge system 
really is broke and needs fixing. And I would argue that it 
ain't broke, that these use decisions are best left to 
discretionary methods to determine what is appropriate. I think 
it has worked well. Yes, there have been lawsuits, but there 
have been lawsuits in every field, and as the Secretary said, I 
don't think you are going to be able to avoid that in this 
society. But to now put into law the way this bill is drafted 
that these activities are almost mandatory, I think, is the 
wrong step and certainly leads to the bill being a very special 
interest, very special purpose bill. And I think that is 
inappropriate, Mr. Chairman.
    Mr. Saxton. Thank you. Mr. Secretary, I don't know that I 
have any further questions at this time. I would just comment 
for the record that I--I will turn to you in just a moment if I 
may, Mr. Pombo. I share a concern that other members, and I 
think that you have, as well, that we are able--that we 
continue to be able to maintain public support for the refuge 
program and the refuge system. As you know, each year at 
appropriations time I run to the appropriators to try to get 
money to expand the system in my district, Forsythe Refuge. And 
I do that because I understand the biological need for the 
refuge system. In my case it has some pretty specific purposes 
and needs for migratory waterfowl and for other purposes which 
I think are very, very valid.
    At the same time, I recognize the growing resistance in 
some quarters because of the perception of undue restrictions 
from time to time when the refuge manager--and I might say not 
the current one--manages to raise the hackles of a significant 
part of the population surrounding the refuge. And I think that 
is what concerns the members who cosponsored this bill have. 
And I know that you share those concerns, as well, although you 
may have a different approach to dealing with them.
    So I guess I would just reiterate my request for 
consideration in a different forum where maybe we can get 
together and chat about common goals and different approaches 
to get there. And perhaps we can find a common path that we can 
follow to accomplish what we all want to accomplish.
    Mr. Babbitt. Mr. Chairman, I accept that offer, because I 
believe that it should be possible to work toward a mutually 
acceptable solution. And to the extent that that is an offer to 
join together and try to explore those possibilities, I eagerly 
accept that.
    Mr. Saxton. Thank you. I appreciate that very much, and I 
will look forward to those conversations. I think Mr. Pombo 
would like to----
    Mr. Pombo. Mr. Chairman, I just was asked to ask one 
follow-up question. And it deals with the Kenai National 
Wildlife Refuge in Alaska that has in its creation a provision 
in the statement of purpose to provide in a manner compatible 
with these purposes opportunities for fish and wildlife-
oriented recreation. So in that instance it has a similar 
purpose to what is included in this bill. And I was wondering 
if the Secretary is aware of any wildlife-dependent recreation 
interests that have sued under that provision that has been in 
effect for 17 years.
    Mr. Babbitt. Mr. Pombo, I am not familiar with that 
situation. I would be happy to answer in writing.
    Mr. Pombo. Thank you.
    [The following was received:]

                      Co-Equal Purposes of Refuges

    The current situation at Kenai is not the same as would 
exist if H.R. 511 were enacted in its current form. Rather than 
having recreation as a co-equal purpose, it is subordinated to 
all of the conservation purposes of the refuge, and to 
environmental education. Section 303(4)(B) of the Alaska 
National Interest and Conservation Act (ANILCA) sets forth two 
conservation purposes for the refuge and then provides:
    ``(iv) to provide in a manner consistent with subparagraph 
(I) and (ii), opportunities for scientific research, 
interpretation, environmental education, and land management 
training; and
    ``(v) to provide, in a manner compatible with these 
purposes, opportunities for fish and wildlife-oriented 
recreation.''
    Secondly, current refuge system regulations require that we 
determine recreational uses are ``practicable'', and that we 
make a public interest determination when allowing hunting and 
fishing on a refuge. Clearly, having two competing uses at the 
same time and place is not ``practicable'', so when we decide 
to give hunting a priority over wildlife observation at 
specific times and places on Kenai, we have both practicability 
and a public interest determination behind our decision. This 
leaves little if any basis for litigation.
    In contrast, H.R. 511 makes all fish- and wildlife-related 
recreational uses equal purposes of the System, and 
specifically provides that ``no other determinations'' are to 
be made relating to hunting and fishing. This equality of uses, 
reinforced by prohibitions on taking other factors into account 
in making decisions, is what led to my conclusion that the 
users would be able to sue over other preferred uses 
interfering with their use.
    Of course, it is important to note that I was speaking 
figuratively when referring to groups of users suing one 
another. H.R. 511 would enable the competing users to sue me 
for allowing the other user to interfere with their use, not to 
literally sue each other. The end result of course would be the 
same; one group of users taking legal action to thwart another 
group, with our managers caught in the middle, and in the 
courthouse rather than in the field.

    Mr. Saxton. Mr. Secretary, thank you for being with us this 
morning, and we look forward to working with you in the near 
future.
    Mr. Babbitt. Mr. Chairman and committee members, thank you.
    Mr. Saxton. I would now like to introduce our third panel. 
First is William Horn, Director of National and International 
Affairs and Washington Counsel of Wildlife Legislative Fund of 
America; Mr. Max Peterson, the Executive Vice President of the 
International Association of Fish and Wildlife Agencies; Ms. 
Susan Lamson, Director of Conservation, Wildlife, and Natural 
Resources Division of the National Rifle Association; and Mr. 
Gary Myers, the Director of the Tennessee Wildlife Resources 
Agency.
    Welcome to all of you. We are very pleased to have you 
here, some of you for--I guess I should just say some of you 
again. And we look forward to hearing your testimony. And we 
will begin with Mr. Horn. And incidentally, because of 
constraints on our time, we will be adhering rather strictly to 
the five-minute rule, and those little lights in front of you 
will give you the appropriate indications. So when the red 
light comes on, if you would please conclude your remarks and 
at least summarize them.
    Thank you very much. And, Mr. Horn, please proceed.

      STATEMENT OF WILLIAM HORN, DIRECTOR OF NATIONAL AND 
  INTERNATIONAL AFFAIRS, WILDLIFE LEGISLATIVE FUND OF AMERICA

    Mr. Horn. Mr. Chairman, thank you. I am appearing today on 
behalf of the Wildlife Legislative Fund of America and the 1.5 
million hunters, anglers, and conservationists it represents. 
We greatly appreciate the opportunity to appear today and 
present testimony to you in strong support of H.R. 511.
    H.R. 511 would rectify a situation and provide finally an 
organic act for the National Wildlife Refuge System as well as 
clearly spell out its mission and purposes to carry it into the 
21st Century. This bill is a carefully refined measure that 
reflects continuing efforts begun in 1994 that have involved 
the bipartisan leadership of the Congressional Sportsmen's 
Caucus, this committee, the State fish and wildlife agencies, 
and work by dozens of sporting conservation organizations. And 
that careful work persuaded the House to pass essentially the 
same bill by a lopsided bipartisan two to one majority on April 
24 of 1996.
    This year's measure reflects further refinement. I would 
like to tell you that the WLFA supports the changes in H.R. 511 
and is convinced that issues regarding land acquisition 
authorization, military overflights, and the consequences of 
government shutdowns ought to be dealt with in separate 
measures.
    The debate on this bill really boils down to one provision, 
and that is Section 4(d), which states that one of the six 
purposes of the refuge system is to ``provide opportunities for 
compatible uses of refuges consisting of fish and wildlife-
dependent recreation, including fishing, hunting, wildlife 
observation, and environmental education.'' I urge the 
committee to read this provision carefully. It does not mandate 
fishing and hunting on all refuges. It does require that 
fishing and hunting and wildlife-dependent recreation 
activities be compatible. It does not commercialize the refuge 
system, nor does it eliminate or override the fundamental 
wildlife conservation mission of the system.
    And why is it important to have the law spell out that 
compatible fishing and hunting be made a purpose of the system? 
From our perspective it is very simple. The sporting community 
needs a statutory shield from the animal rights extremists who 
have made it their mission to terminate all fishing and hunting 
on the refuge's public lands. The Fish and Wildlife Service 
over the past years has had to fight off lawsuits from the 
animal rights organizations seeking to end all hunting on 
refuge lands.
    And in virtually every Congress, bills have been introduced 
to end these traditional activities on the public lands. As 
Congressman Farr noted previously, there are many Americans who 
have been misled by the name refuge and believe that these 
lands are somehow sanctuaries that are off limits to these 
traditional activities. Making these activities merely a 
priority use gives America's anglers and hunters short shrift. 
They should be entitled to a simple statutory declaration that 
provides compatible fishing and hunting as one of the purposes 
of the system. No Federal judge or no Department of the 
Interior is going to be able to ignore or explain away such a 
straightforward, plain-spoken declaration recognizing these 
practices.
    Now the behavior of many of the bill's critics also 
demonstrates the need for a clear declaration along these 
lines. H.R. 511 and its predecessor bill last year have been 
the subject of an incredible campaign of distortion, 
disinformation, and misinformation. Critics have speciously 
alleged that the bill eliminates the conservation mission. 
Section 4 does precisely the opposite. They have argued that 
the bill mandates hunting and fishing everywhere. Section 8 
does the opposite. They have argued that the bill 
commercializes the refuge system or drenches the system in 
pesticides or allows grazing and oil and gas and jet ski use 
everywhere. My review of the bill indicates that those sections 
must be written in invisible ink, because they are not present 
in the bill.
    Today we discover a couple of new fictions have been added. 
The Administration, after three years, now discovers that 
setting forth specific purposes will allow refuge users to sue 
each other. I should point out and follow up, I think, on Mr. 
Pombo's question, that some existing refuges, like the Kenai 
unit in Alaska, have wildlife recreation as a statutory 
purpose. And that has been a statutory purpose of that one unit 
for 17 years. Similarly, the Service's, Fish and Wildlife 
Service's, present manual sets forth the ``materially 
interfere'' compatibility standard, and that has been on the 
books for well over a decade.
    Notwithstanding the fact that you have got language on the 
books right now that is essentially similar to what is in the 
bill, there have been no lawsuits that I am aware of, as a keen 
observer of this program, for at least the last 16 years. I 
fail to see how this bill is going to create any opportunities 
for new lawsuits. I am simply convinced that this is just the 
newest example of the Administration concocting creative and 
tortured readings of this bill to invent new excuses to oppose 
the legislation.
    We appreciate the leadership you, Mr. Chairman, and the 
Subcommittee have played on this legislation, and we look 
forward to working with you to quickly enact H.R. 511. Thank 
you.
    [Statement of William Horn may be found at end of hearing.]
    Mr. Saxton. Thank you very much. I appreciate your 
comments. Mr. Peterson.

    STATEMENT OF R. MAX PETERSON, EXECUTIVE VICE PRESIDENT, 
    INTERNATIONAL ASSOCIATION OF FISH AND WILDLIFE AGENCIES

    Mr. Peterson. Thank you, Mr. Chairman. I am Max Peterson, 
representing the International Association of Fish and Wildlife 
Agencies. As you know, Mr. Chairman, all 50 State fish and 
wildlife agencies are members of the association. And we are 
particularly pleased this morning to have the President of our 
association, Mr. Duane Shroufe, with us here. He has been 
working with us the last several days. And also another member 
of our association, Mr. Gary Myers, the Fish and Wildlife 
Director in Tennessee, who will testify separately.
    Mr. Chairman, you have my written statement. If you accept 
it for the record, I will try to brief it to save you some 
time.
    Mr. Saxton. We would appreciate that.
    Mr. Peterson. We are here today to basically support H.R. 
511. In doing so, I would like to thank you and Chairman Young 
and Congressman Dingell for your continuing efforts in working 
with us to improve the bill for the benefits of our fish and 
wildlife resources, our system, and our citizens.
    We appreciate the fact that H.R. 511 as written out does 
not contain specific refuge management direction, which we were 
concerned about in a previous version. We are also pleased that 
you incorporated much of President Clinton's Executive Order 
into the bill. In fact, Mr. Chairman, I was listening to the 
dialog earlier today, and much of what the President said in 
the Executive Order--you know, he cleverly avoided the use of 
the word purpose in the Executive Order. And he just--he set 
forth guiding principles. Those guiding principles are the same 
ones that are in this bill.
    And if--as you know, Mr. Chairman, going back and reading 
Mr. Dingell's testimony of 1994, who was the author of the bill 
in the 60's, he pointed out very clearly that they intended at 
that time to distinguish between general recreation of a 
refuge, which was the rage at that time with new use of public 
lands, from wildlife-dependent recreation, which he considered 
had always been a purpose of the refuge. And he was the floor 
manager of the bill that passed at time. So we find--it is 
interesting we find that historical part. So I would like to 
suggest that we provide to you the 1994 statement of 
Congressman Dingell, which contains the historical sketch on 
those original bills, because some of the rhetoric you hear 
today simply does not reflect the reality of the history of the 
refuge system.
    [The information may be found at end of hearing.]
    Mr. Peterson. In order that we not be misunderstood, Mr. 
Chairman, let me emphasize that the State fish and wildlife 
agencies recognize full well what Mr. Farr just said, that one 
of the most--the most rapidly increasing use of the out of 
doors is to watch for wildlife. That is one of the reasons this 
bill has wildlife observation among its uses, along with 
conservation education. I don't really believe our vision 
differs substantially from Secretary Babbitt and most others 
who want to see a constructive organic act for the refuge 
system. Our differences, I believe, are how to outline that 
vision in the statute which will provide useful guidelines and 
processes.
    I would point out that anybody can sue anybody now any day 
of the week on the refuge system and have, in fact, done so in 
recent years. So the idea that anybody can sue each other is 
not a new idea.
    As stated in both the Executive Order and in your bill, we 
have always believed that the mission of the National Wildlife 
Refuge System was, as stated in this bill and the Executive 
Order, to conserve fish and wildlife and their habitats for the 
use and enjoyment of our citizens. As far as I know, everyone 
can stand on that common ground, the States, the Fish and 
Wildlife Service, anglers, birders, hunters, nature 
photographers and so on.
    It is convenient to quote Starker Leopold at times, but he 
said in his report on the National Wildlife Refuge, the 
National Wildlife Refuges should stand as monuments to the 
science and practice of wildlife management. We fully concur.
    We believe also that fish and wildlife dependent uses, such 
as environmental education, fishing, hunting, birding and 
nature photography should be given statutory recognition as 
priority uses of the National Wildlife Refuge where appropriate 
and when these uses are compatible with sound principles of 
fish and wildlife management and consistent with the purposes 
for the individual--for which the individual refuge was 
established. The idea that somehow this would force hunting in 
downtown Philadelphia is ludicrous, to tell you the truth. 
There is nothing in this bill that would do that.
    We also believe that any National Wildlife Refuge bill 
should direct the Secretary to provide these opportunities 
where appropriate and compatible.
    Finally, Mr. Chairman, I believe we need a little time out, 
maybe, for people to sit down and draw back from this bill a 
little bit and look at the Executive Order and see if there is 
a more com-

mon ground than maybe what has come forth. And we are willing 
to do that and engage in that good-faith effort to see if there 
is a bill we all can agree on that does--is faithful to the 
history of the wildlife refuge system and does provide 
something that the American people will continue to find useful 
and support and that sportsmen and women and bird watchers and 
everyone else can agree on.
    Thank you, Mr. Chairman.
    [Statement of Max Peterson may be found at end of hearing.]
    Mr. Saxton. Thank you, Mr. Peterson. Mrs. Lamson.

STATEMENT OF SUSAN LAMSON, DIRECTOR, CONSERVATION, WILDLIFE AND 
 NATURAL RESOURCES, INSTITUTE FOR LEGISLATIVE ACTION, NATIONAL 
                  RIFLE ASSOCIATION OF AMERICA

    Mrs. Lamson. Thank you, Mr. Chairman. The National Rifle 
Association appreciates the invitation to testify today on a 
subject that likewise is of vital importance of our membership, 
and that is the future management of the National Wildlife 
Refuge System. We wholeheartedly support H.R. 511, and we 
applaud the efforts of the author and the bill's primary 
cosponsors in addressing issues that were raised about H.R. 
511's predecessor.
    I would like today to focus my remarks on Section 4 and 
state that NRA unequivocally supports the addition of purpose 
D. Making wildlife-dependent uses a statutory purpose 
recognizes that people are a critical element to the present 
and future support of the refuge system. This belief is borne 
out in the findings of the bill, which recognize that the 
American people have a right to enjoy the benefits derived from 
the investment they make through their tax dollars, Federal 
duck stamp purchases and entrance fees. It is also expressed by 
the Fish and Wildlife Service, which recognized in the opening 
pages of its booklet on the refuge system, entitled Promises 
for a New Century, that wildlife refuges are gifts to ourselves 
and to generations unborn, simple gifts whose treasures are 
unwrapped every time someone lifts binoculars to the flash of 
feathered color, every time a child overturns a rock, and every 
time a hunter sets out the decoys or an angler casts the water.
    But elevating wildlife-dependent uses to a purpose of the 
system does not mandate that these types of uses occur on all 
refuges. Neither does H.R. 511 mandate that the Fish and 
Wildlife Service ensure that the other five listed purposes of 
the system be applied on all refuges. This point is reinforced 
in the requirements for preparing refuge plans, whereby the 
purposes of the system applicable to a particular refuge must 
be identified and described. Furthermore, purpose D does not 
speak to wildlife-dependent uses, but to compatible wildlife-
dependent uses. Making wildlife-dependent uses a purpose of the 
system does not make them coequal to conservation or the other 
purposes because of the compatibility review test that that one 
purpose has to go through.
    In the definition section of the bill it clearly states 
that uses, wildlife-dependent and all other uses, must be 
compatible with the purposes of a refuge or the overall 
purposes and mission of the system. It also anchors the 
determination of compatibility upon the rock of sound resource 
management and scientific information. Ad-

ditionally, in Section 5, instructions to the Secretary, the 
word compatible is tied to each and every statutory instruction 
relating to the recognition of priority public general uses, 
expansion of these opportunities and identification and 
provision for such uses on refuge lands.
    I believe the burden of proof falls to the opponents of 
purpose D to show how that purpose could materially interfere 
with or detract from the Fish and Wildlife Service's ability to 
fulfill the purposes of a given refuge or the overall mission 
and other purposes of the system.
    Now another reason why NRA strongly supports the inclusion 
of wildlife-dependent uses as a purpose, and this was just 
mentioned, is to ensure that the system is shielded from 
lawsuits such as the one filed by the Humane Society of the 
United States in 1984 to shut down the system to hunting and 
trapping. There are several examples of numerous statements 
that HSUS made at the time. For example, ``of all the 
inappropriate activities now taking place on wildlife refuges, 
surely sport hunting and trapping represent the most blatant 
betrayal of the refuge system. Hunters wish to deliberately 
destroy wildlife and defeat the whole purpose for which the 
system was established. HSUS will do everything in its power to 
end this travesty.''
    The NRA is concerned that unless wildlife-dependent uses 
are made a statutory purpose, the hunting community and the 
Fish and Wildlife Service can expect future litigation over the 
definition of refuge in the context of the system's mission and 
purposes. In response to the HSUS lawsuit, refuge managers 
compiled over 2000 pages of administrative record and 5000 
pages of discovery material. The NRA believes that refuge 
managers ought not to be made conservators of paper but rather 
conservators of wildlife.
    The bill before you today will minimize such a diversion of 
refuge resources. This legislation presents the opportunity for 
the Congress to ensure that compatible wildlife-dependent uses 
such as hunting are expressly allowed.
    NRA fully supports the compatibility review process. We 
believe it provides for a conscientious review without 
exhausting fiscal and administrative resources to manage the 
system. And it is especially important inasmuch as the 
operation and maintenance backlog of the system need not be 
exacerbated by unnecessary and burdensome standards and 
procedures.
    In summary, we appreciate the opportunity to be here and 
look forward to assisting you in the process of making this 
organic legislation a reality. Thank you.
    [Statement of Susan Lamson may be found at end of hearing.]
    Mr. Saxton. Thank you very, very much, Mrs. Lamson. Mr. 
Myers, you may proceed.

   STATEMENT OF GARY T. MYERS, EXECUTIVE DIRECTOR, TENNESSEE 
                   WILDLIFE RESOURCES AGENCY

    Mr. Myers. Mr. Chairman and members of the Subcommittee, 
thank you for the opportunity to comment on H.R. 511. I head 
the Tennessee Wildlife Resource Agency, which is the State 
agency responsible for the management of fish and wildlife in 
Tennessee. I want to make you aware of a movement in the 
conservation com-

munity which I believe will become a significant force driving 
the future expansion of the Federal Refuge System, and I want 
to make you aware of the importance of H.R. 511 to the success 
of that movement.
    As you probably know, in 1986 the Canadian Minister of 
Environment and the U.S. Secretary of Interior signed the North 
American Waterfowl Management Plan. The plan, developed with 
heavy State and provincial involvement, established acreage 
targets for priority waterfowl habitat areas in the United 
States and Canada over a 15-year period from '86 to the year 
2000 and estimated that $1.5 billion would be required to 
accomplish these objectives. Since then, about one billion has 
been spent. In the United States, over a million acres have 
been protected, 420,000 acres restored, and over 1.5 million 
acres enhanced for waterfowl. I don't have the numbers, but I 
am aware that a good many acres were added to the Federal 
Refuge System as national waterfowl habitat needs were 
addressed.
    In 1990, Federal, State, and private interests joined 
together to likewise address the needs of neotropical birds 
through Partners in Flight. This group is following in the 
footsteps of the North American Waterfowl Management Plan in 
their development of a North American plan for neotropical 
birds. A large body of experts will eventually reach a 
consensus on the habitat needs of neotropical birds across our 
nation. Already those experts are folding songbird habitat work 
into the Lower Mississippi Valley waterfowl joint venture.
    A common goal for songbirds and waterfowl is the 
reforestation of thousands of acres of bottom land hardwoods. 
Thus, an important component of one plan is also part of 
another, creating additional support for action. Bottom land 
hardwood reforestation also benefits other game species, which 
leads toward possible partnerships with the National Wild 
Turkey Federation, Audubon, Ducks Unlimited, and others to 
leverage State and Federal dollars.
    These types of activities are occurring to some extent now. 
Shorebird experts are also developing a national plan and 
efforts are underway to bring fish into the equation. It is 
likely that flooded bottom land hardwoods serve as rich nursery 
areas for fish from the Mississippi River, and it is no secret 
that ducks also thrive in flooded bottom land hardwoods. These 
are the same forests that songbirds, turkey, deer, squirrel, 
some threatened and endangered species frequent, providing 
additional opportunity for support and funding.
    Over time, strengthened migratory bird partnerships will 
facilitate the development of an International Migratory Bird 
Management Plan that will become a major force driving the 
expansion of the Federal Refuge System. Partnerships developed 
through that plan and others will evolve into biodiversity 
initiative, and ultimately impact ecosystems, and that impacts 
wildlife populations, plant communities and more. This 
evolution opens new doors for funding, partnerships and 
leveraging, but may create the possibility that we lose sight 
of the original purpose of each refuge.
    H.R. 511 ensures that this does not happen. Many of us old-
fashioned, single-species managers would be uncomfortable 
without this assurance.
    Likewise, some hunters are convinced that hunting will one 
day be phased out on Federal lands designated primarily to meet 
the needs of migratory songbirds. And I suspect that some bird 
watchers are fearful that they may eventually be excluded from 
some Federal refuges that meet the habitat needs of game 
species. H.R. 511 provides assurances to both groups to the 
extent practical, paving the way for an evolution of 
partnerships never before thought possible.
    The fair treatment guaranteed by H.R. 511 of hunters and 
non-hunters is crucial if we are to realize the partnerships 
essential to the formation of a national network of lands and 
waters designed to conserve and manage fish, wildlife, plants, 
and their habitats across America.
    H.R. 511 does more than ensure the integrity of the 
existing refuge system and provide a level playing field for 
hunters and non-hunters. It establishes purposes which clearly 
posture the refuge system to play a major role as the nation 
and industry address habitat needs of a host of species, 
including interjurisdictional fisheries and all migratory 
birds, as they work to recover endangered or threatened 
species, fulfill treaty obligations, and provide for recreation 
and environmental education.
    The Tennessee Wildlife Resource Agency strongly supports 
passage of H.R. 511. Thank you, Mr. Chairman.
    [Statement of Gary Myers may be found at end of hearing.]
    Mr. Saxton. Thank you very, very much. Thank all of you 
very much for what I consider to be very articulate and 
worthwhile testimony.
    Mr. Pombo, would you like to lead off the questioning of 
this panel?
    Mr. Pombo. Thank you, Mr. Chairman. Mr. Peterson, I found 
your testimony very interesting. I was wondering on the other 
bill that we are having the hearing on, H.R. 512, what your 
feelings are on that in terms of requiring Congressional 
approval for new wildlife refuges.
    Mr. Peterson. I think now, as you probably remember, before 
you can acquire land in a State using the duck stamp money it 
requires the approval of the governor of the State. So it seems 
to me like that is an appropriate type of thing. I wonder if 
Congress wants to be involved in every little refuge. I think--
I cannot think of a single case that a Member of Congress has 
not supported the idea of establishing a refuge, so it seems to 
me fairly superfluous. But we haven't really taken a firm 
position on that bill. We would be glad to talk to you more 
about it.
    Mr. Pombo. All right, thank you. Mr. Horn, in your 
statement you talked about some of the other refuges that have 
similar purposes to what is included in this bill. And I know 
that you are very familiar with a number of those. In your 
experience and in the history, especially with the one in 
Alaska, have they had any problems with the way that that 
language was worded 17 years ago?
    Mr. Horn. No, sir. Matter of fact, that is one reason, I 
think, that the threat of litigation arising from this bill is 
absolutely de minimis. We have had similar language on the 
books for all these years in Alaska. Recently when Congress 
passed an Arkansas Land Exchange Bill that acquired major land 
holdings along the Cache and the White Rivers, there was 
language included to maintain existing hunting opportunities 
and recognize them as important in that newly established 
refuge unit. And the only lawsuits that have arisen challenging 
uses of the refuge have been brought either by, as Ms. Lamson 
pointed out, by the Humane Society to try to shut down all 
hunting activities on all refuges or some of the other lawsuits 
brought by Audubon Society and company against the Service 
seeking to shut down a number of non-hunting type matters.
    The whole notion of litigation among the user groups is 
really just--it hasn't occurred. It hasn't occurred under the 
language that is on the books, and I think it is exceedingly 
unlikely to occur under the language that is in H.R. 511.
    Mr. Pombo. You said non-hunting type recreational 
activities. What were you referring to?
    Mr. Horn. Well, the--a group of environmental plaintiffs 
brought lawsuit to close down some boating activities, 
picnicking activities on a couple of refuges. Essentially that 
suit was broadly aimed at a lot of what were called secondary 
uses of the refuge system, and they pressed to have the agency 
go through and try to eliminate a lot of those secondary uses. 
I know that this Administration complied by executing an out-
of-court settlement to that effect.
    Mr. Pombo. But when you talk about Mr. Farr's watchable 
wildlife and what Mr. Peterson testified to about how people 
really want access to these wildlife refuges so that they can 
see the wildlife out there, wouldn't that--eliminating the 
secondary activities as you call them, wouldn't that be 
detrimental to being able to get in and see the wildlife?
    Mr. Horn. There has been a considerable debate over, you 
know, how do you appropriately manage the units. In some cases 
recreation for watchable wildlife has resulted in the 
construction of roads so you can take a tour through an area 
and the construction of visitor's centers and such. I know that 
there are some interests out there that believe any type of 
those human intrusions into a refuge are totally inappropriate 
and that we shouldn't be building facilities or picnic grounds 
and we shouldn't be facilitating that type of public recreation 
use.
    That is one of the reasons, I think, that we all believe 
that making these wildlife-dependent recreation uses--and that 
language was very carefully selected. It doesn't just say 
hunting and fishing. It says wildlife-dependent recreation 
because we wanted to ensure that other users who relate to 
wildlife, the bird watchers, the observers, get a similar level 
of protection.
    Mr. Pombo. So I know that the bulk of this hearing is 
centered around the hunting and fishing part of the bill, but 
the other provisions that were listed as purposes of the 
wildlife refuge, there has been a threat to the continued 
activity on those, as well.
    Mr. Horn. That is correct.
    Mr. Pombo. Well, I don't have any further questions at this 
time, Mr. Chairman. Thank you.
    Mr. Saxton. Thank you, Mr. Pombo. Mr. Farr.
    Mr. Farr. Mr. Chairman, I am going to have to apologize 
because I have to go after this, but I just want to make an 
observation. And I think that in all due respect we have got to 
tell the full story here. And that is that when you do elevate 
hunting and fishing as one of the purposes for the refuge 
system and then you include wildlife-dependent recreation, 
including wildlife observation and environmental education, 
which is the Section D that you all have alluded to, it is very 
important. However when you go on to the real meat of how the 
Secretary shall interpret these uses, you drop out the wildlife 
observation and environmental education.
    You indicate that the Secretary shall permit fishing and 
hunting and you don't include the others, and you say ``that 
they are compatible with the purposes of the system,'' not the 
refuge, not the refuge, but the whole system, which you have 
already defined is for the purposes of hunting and fishing. And 
then you go on to say on page 13 no other determinations or 
findings are required to be made for fishing and hunting.
    So essentially, although you incorporate these others in 
your general purposes, when it comes down to the fact finding 
of what should be done, you elevate hunting and fishing to a 
more superior purpose. And I contend that I don't know what is 
broken that needs fixing. I didn't know we hunted on any 
refuges and I understand we hunt on more than half of them. And 
I guess what the panel is saying is that is not enough.
    Mr. Peterson. No, I think you are misinterpreting what we 
are saying. In the first place, I wouldn't quarrel at all by 
adding wildlife observation in some of those places. I think 
that is a good idea to add those. There is no intention of any 
of us to elevate hunting and fishing over other kinds of 
wildlife-dependent recreation. And again, I would commend you 
to read Congressman Dingell's history of the wildlife refuge 
system.
    Mr. Farr. Well, I am familiar with that. I also read his 
statement that he gave on the Floor, which was different 30 
years later, if you want to put that into the record. It is 
contrary to what he said in committee, so----
    Mr. Peterson. Well, anyway----
    Mr. Farr. Mr. Dingell has also changed his opinion from the 
very beginning.
    Mr. Peterson. Let me just say on a here and now basis--and 
maybe the trap, Congressman Farr, is the whole way we have 
traditionally talked about the purposes of the refuge. I think 
we recognize a hierarchy of purposes, if I can use that word, 
recognize that the fundamental purpose of the refuge system is 
to conserve the refuge for fish and wildlife. I mean, that is 
sort of number one. Like, if you have a house, a fundamental 
purpose is to take care of the house. Once you take care of the 
house, you might like to have some people sleeping in it, 
though, and you might like to have some people using it. So in 
the hierarchy thing we see that fish and wildlife-dependent 
recreation ought to be a priority use just as the Executive 
Order says. Now whether you call it a priority use or priority 
purpose, I am not quite sure how that differs.
    Mr. Farr. But with 285 refuges you are able to fish and 
hunt on, why--what is the problem?
    Mr. Peterson. Well, for example, take--there are brand new 
refuges in both Arkansas and West Virginia right now. OK, under 
current provisions the minute those are set aside they are 
closed to public use. There isn't any reason for it. It is just 
our policy. We close them to public use. Only in Arkansas where 
Senator Bumpers put a specific provision in there that said it 
will remain open to these traditional uses during the planning 
period is that area open. So unless there is a--unless public 
use is recognized as a purpose of the system, they end up being 
closed and they may never be open to any kind of public use, at 
least within six or ten years. That has been a problem in a lot 
of places, because until the planning is done they are closed 
to public use. Now why should the public put money into a 
refuge system and then have it closed the day that it is made a 
refuge if there isn't any reason to?
    Mr. Farr. Well, it makes very good sense to me. For 
example, when we don't know how we are going to eventually use 
something when we use other land in our local communities, we 
put moratoriums on development of that land until we figure out 
how we are going to use it.
    Mr. Peterson. No question we would--this bill the way it is 
written now says if the Secretary wants to discontinue any of 
those uses he can do it, but it doesn't require him to 
discontinue it until he does a plan.
    Mr. Farr. Well, that makes sense. A plan is done in an 
open, public manner--every park in America and every park in 
our State and local governments, they have to have a plan. You 
develop a plan for those uses. And it seems to me, that is the 
process that ought to determine whether or not these other uses 
are appropriate.
    Mr. Peterson. And we agree----
    Mr. Farr. Not mandating it in law that you have to.
    Mr. Peterson. We didn't do that, Congressman Farr.
    Mr. Farr. Yes, you did.
    Mr. Peterson. We did----
    Mr. Farr. You may not have intended to do it, but that is 
the way the bill is worded.
    Mr. Peterson. We would respectfully disagree that it 
mandates that. It says it permits it to continue till the--
unless the Secretary determines----
    Mr. Farr. No, it says the Secretary shall permit. Shall is 
mandatory, not permissive.
    Mr. Peterson. Well, read the rest of the phrases, though. 
Providing it is compatible with the principles of sound 
wildlife management and is compatible with public safety.
    Mr. Farr. But on the mandatory process you don't include 
that other language that you wanted in your Section D, which 
was the language on wildlife observation and environmental 
education. You drop that in the rest of these mandates--and you 
indicate that no other determinations or findings except the 
determination of consistency with State laws and regulations 
are required to be made for fishing or hunting.
    Mr. Peterson. You have to read the entire section there. 
You are reading----
    Mr. Farr. Well, I am reading it. I do know how to read the 
law.
    Mr. Peterson. We would be glad to sit down and go over that 
with you, but there is no forcing of wildlife-dependent 
recreation on a refuge without it being compatible with the 
principles of sound wildlife management and public safety.
    Mr. Farr. Well, it appears that if you--you know, that 
you----
    Mr. Peterson. It is a bill----
    Mr. Farr. Why don't you include all the wildlife 
observation and environmental education as well in that?
    Mr. Peterson. I think that is a good suggestion. I think we 
could reasonably do that.
    Mr. Farr. But again, you know, I have got to run, but my 
concern is: I don't think it is so broken that it needs fixing, 
that you have got to go into law and then make this law so 
strong that you are going to make it mandatory that fishing and 
hunting have to be a use. I mean, if over half of the refuges 
that are created in America are allowing these activities, and 
it is up to the discretion of the plan that is devised, and 
that plan includes input from the people that are most 
participatory in the refuge area, the local people, it is a 
bottoms-up plan. That process can determine whether these 
issues are compatible.
    That seems to me a much more democratic process than 
telling the country that whomever the Secretary of Interior is 
that he must or she must allow fishing and hunting. And that is 
the way I read the law that you have drafted. Now that is maybe 
not the way you intended it, but I think that is the way it can 
easily be interpreted.
    Mr. Peterson. We would be glad to work with you to be sure 
that that is not the interpretation. That is not our intention.
    Mr. Farr. OK, thank you very much.
    Mr. Saxton. Thank you, gentlemen. Let me just make two 
points, one on this provision that Mr. Farr was just talking 
about. And actually I don't know whether it was one of your 
ideas or my idea, but I came back from home with a concern that 
had to do with open till closed provision, because I was 
actively pursuing the expansion of the Forsythe Refuge and all 
of a sudden I found--I went to a dedication one day of an 
island that we secured which we thought was environmentally 
sensitive and I went back the next day and Fish and Wildlife 
had erected a sign to keep out. I said I don't think that was 
what I intended. And so we wrote this language, and whether it 
is perfect or not I don't know, but it is intended to provide 
for traditional uses of the land until a comprehensive 
management plan has been adopted so that people won't feel that 
we are arbitrarily closing the land to all uses, all historic 
uses.
    Now to the Secretary's credit, I am told this morning that 
a new process has already been put in place, which modifies the 
old process somewhat to outline continuing permitted uses on an 
immediate basis. And I think that is progress. Now I have not 
seen it work yet. I do not know any more than what I just 
repeated from what I was told earlier by the Secretary and his 
people, but that is progress. And I for one appreciate the fact 
that we don't have the old policy anymore and we have a new one 
that seems to make more sense. Now I don't know whether that 
satisfies the whole situation, but at least we are moving in 
the direction of the bill. And I thank the Secretary for that.
    Let me make one other point. Wildlife refuges are not 
designed to be wilderness areas or sanctuaries where no human 
activity can occur, either by the letter of the current law or 
through practice that has been established over the years. 
Wildlife refuges are intended to be highly managed environments 
designed to enhance the production of specific species, control 
other non-target species through hunting, trapping, and often 
this requires the requirement for managers of these refuges to 
be actively involved for the purposes, again, of specific 
species.
    Would you agree that that is a fair characterization of the 
current refuge system, and do hunting and other uses that we 
are talking about fit within that definition that I just gave?
    Mr. Horn. Mr. Chairman, I would say yes. And I think that 
the other point worth making here is that you point out that 
what the Secretary announced this morning in terms of new lands 
is a policy. The Executive Order is a policy. What we are 
talking about in this bill is enshrining policy, which is 
subject to change, into statute so that it is in place once and 
for all.
    And the reason we need a statute is that in terms of all 
the hunting examples that continue and now exist on the units, 
we are looking for the statutory shield from the next animal 
rights lawsuit so it doesn't end up with one judge closing down 
92 million acres of public land. So I think that many of the 
policies are in pretty good shape right now, but there ought to 
be codification of those policies into statute to provide long-
term assurances to the American public that uses and invests in 
the refuges.
    Mr. Peterson. Mr. Chairman, I would agree with that. And on 
the Secretary's policy statement about opening some land, you 
know, I think the only problem we have seen with that is that 
is on an acquisition by acquisition basis. And sometimes those 
acquisitions are as small as 40 acres. It is pretty hard when 
you are acquiring 40 acres in a major refuge to make a judgment 
about what the future use of that 40 acres is going to be. We 
would rather see it be done on the basis of a plan for the 
refuge system--the refuge--the specific refuge.
    That is an interim decision, by the way, that one that he 
has mentioned. It is an interim decision which can be changed 
the next day without any protocol at all. So it is a pretty 
slender reed, as Mr. Horn said. There is nothing in the statute 
that recognizes that. It is purely a policy. So we need to put 
something more than that into the statute.
    Mr. Saxton. Thank you very much. Mr. Abercrombie.
    Mr. Abercrombie. With regard to the argument made just in 
the last points, surely you don't think that by enacting a 
statute that is going to limit the judiciary from entering if 
someone decides that they think that the statute as written is 
inadequate? I mean, part of the whole discussion that has been 
held here today is that this language may not accomplish what 
you want, so I am not sure that that is going to ensure 
anything.
    What bothers me in this discussion is there is an 
implication that hunting and fishing is somehow clinging--I 
think the word was a slender reed with respect to the policy, 
but that hunting and fishing activities--seen as a legitimate 
activity in the refuge system--is scarcely able to sustain 
itself now. Now my information is is that in over half of the 
refuges which comprise 90 percent of the system's acreage, 
hunting and fishing are now part and parcel of the activity 
that goes on. So I am not entirely sure as to what the 
necessity of legislative activity is at this point, because 
once you have that underway, I think that it is not an accurate 
reflection of the political world as it exists to think that 
suddenly hunting and fishing would be eliminated at the whim of 
somebody.
    Mr. Peterson. Congressman Abercrombie, let me back up a 
little bit and say that the Constitution of the United States 
places in the U.S. Congress the responsibility for determining 
the guidelines for management of public lands. Now the Congress 
has really not ever passed an organic act for the fish and 
wildlife refuge system. And the real question here is should 
Congress say how they want that system to be managed, or should 
it simply rely on different Secretaries of the Interior and 
different Presidents through Executive Orders and other policy 
to determine that, because the Constitution says it is your 
responsibility as Congress to do that for the public lands.
    Mr. Abercrombie. Well, I am quite content to do that, but 
do--is it your understanding--is my information correct that 
well over half of all the refuge parcels now, designated refuge 
now, have hunting and fishing as a part of the recognized 
activities and that in terms of the actual acreage the hunting 
and fishing is now permitted on 90-plus percent of all the 
acreage now designated refuge?
    Mr. Peterson. I don't know about the percentage. I think 
the number is correct, but let me----
    Mr. Abercrombie. OK.
    Mr. Peterson. Let me again point out that----
    Mr. Abercrombie. I understand what your point is, because I 
know the Chairman needs to move on. I am merely saying that I 
think the Chairman's suggestion that this language be looked at 
so that you avoid further litigation--now I know that some of 
the members said that the Secretary was reading too much into 
it. That is precisely what you don't want to do.
    I am not going to argue with you that maybe the Congress 
should set the legislative boundaries in an organic act sense, 
but if we do it then we should make sure that whatever language 
we write will minimize the litigation and minimize the possible 
confrontations between nature photographers and bird watching 
and hunting and fishing and hiking and simple observation, and 
as well within the context of conservation. I am sure you would 
all agree with that, could we not?
    Mr. Peterson. Yes, but I don't know of a single lawsuit 
between those groups so far----
    Mr. Abercrombie. Not yet.
    Mr. Peterson. [continuing]--on the refuge.
    Mr. Abercrombie. The Secretary's point, I think, was is 
that if we pass the legislation in its present written form, 
perhaps that might occur. And I think the Chairman's suggestion 
was is that maybe we could take a look at the language to see 
whether or not compatible uses that are respectful to the 
conservation mandate could be written in a way that could 
achieve a broader consensus.
    Mr. Peterson. We would be glad to work with that.
    Mr. Abercrombie. Thank you very much, Mr. Chairman.
    Mr. Pombo. Thank you. I don't believe that there is any 
further questions of this panel. I just want to thank you all 
very much for your testimony and for your patience in sticking 
around for the rest of the hearing. Thank you very much.
    I would like to call up the fourth panel. The Honorable 
Bernie Richter, Assemblyman, State of California; Mr. John 
Baranek, President, Herzog Company; Mr. Jeff Craven, 
Cloverdale, Oregon; Mr. Dan Beard, Vice President, National 
Audubon Society; and Mr. Roger Schlickeisen, President, 
Defenders of Wildlife.
    OK, I am told that Mr. Robert Dewey is going to testify in 
his place.
    Thank you very much. I would like to start with Assemblyman 
Richter.

 STATEMENT OF BERNIE RICHTER, ASSEMBLYMAN, STATE OF CALIFORNIA

    Mr. Richter. Thank you very much, Mr. Chairman and members 
of the committee. I represent the Third Assembly District, 
which is extreme Northeast California, from the Oregon border 
to Highway 80 and from the Sacramento Valley to the Nevada 
border. And it is a pleasure to be here because I have some 
pertinent information that relates directly to this bill, and I 
hope that it is useful to you in making a decision as to how 
you will act in this matter.
    Mr. Chairman and members, I want to tell you about three 
people and how their lives relate to the bill that is before 
you. 75-year-old Flair Royal was a much respected, retired 
schoolteacher who taught for 20 years at Far West Elementary 
School at Beale Air Force Base before retiring in 1988. She was 
viewed as an outstanding teacher and highly respected in the 
community. She positively affected the lives of many young 
children.
    Bill Nogagawa was a loyal 86-year-old former employee of 
Numous Incorporated. He has faithfully worked for the company, 
his former employer, until he retired 20 years ago.
    Marian Anderson was a 55-year-old wife of Reclamation 
District 784 manager Gene Anderson. She was a mother of nine 
children and was a friend of all who knew her.
    There is indeed a strange and eerie connection between Gene 
Anderson's job and his pleas to government agencies as it 
relates to the story of the tragedy that I am going to describe 
to you here today.
    If they could, all three of these people would be here 
today to testify at this hearing and to speak with unflinching 
support for the position I am taking here today. Unfortunately, 
they cannot be here because they are dead. I believe and the 
residents of Yuba County, California, who I represent in the 
California State Legislature, believe that these three people 
were killed by the negligence and irresponsible action of 
several Federal agencies, in particular the Federal Fish and 
Wildlife Service.
    But let me start from the beginning of the story. As you 
ponder the bill that is before you, I urge you to note that the 
new opportunities to create wildlife refuges will require 
careful evaluation to be sure that the very act of placing or 
creating these refuges does not in itself create a new or 
enhanced danger to human health and safety, much less the 
wildlife refuge itself. In my home State of California, the 
placement of wildlife refuges has exacerbated and interfered 
with the systematic maintenance of levees which are re-

quired to provide and protect the integrity of the very levees 
which protect the wildlife refuges from destruction in the 
first place.
    Levees are essentially piles of dirt, sand and rock, and 
must be maintained so that certain natural elements don't 
destabilize the levee walls. It is critical that repairs of 
levees be conducted in a consistent and timely manner. However, 
many levee maintenance and repair issues are held hostage to 
the Endangered Species Act. Levees are in essence dams anywhere 
from 10 to 40 feet in height. It is as if we would allow great 
dams to be undermined by natural elements and take belated or 
no action to repair such dams and risk the dam failure in 
behalf of protecting certain plants and animals that happen to 
live in the dam wall.
    Maintenance of levee requires the removal of overgrown 
vegetation. Vegetation must be removed because its roots 
provide pathways for water and also provides opportunity to 
snag passing debris, causing a tangle of driftwood, plants and 
manmade trash. These obstructions impede the flow of water down 
in between the levees, and it is particularly critical during 
high water times when restrictive flows put enormous pressure 
on the levee walls, which are more likely to be weakened by 
plant roots and rodent animals.
    The control of vegetation in our levee system on the 
Feather River is restricted by the elderberry bush habitat for 
endangered elderberry beetle. For example, due to the harm and 
harass provisions of the Endangered Species Act, nothing can be 
done to control the vegetation which may impact the beetle or 
its habitat. By the way, no one, neither native or imported 
entomologists, have ever seen any of these beetles on this 
portion of the Feather River in question. In our case, the 
Reclamation District 784 determined that repair work was needed 
on 30 miles of levees. No new levees were planned, only 
maintenance to restore original levees to their original 
condition.
    By the time the project was implemented--and this was--this 
took years, years from the 1986 flood in which we had a 
horrendous flood and a large loss of life in this area--by the 
time the project was implemented, the Army Corps of Engineers 
identified 43 clumps of elderberry bushes that would be 
disturbed during the restoration process. The Corps determined, 
because of requirements of the Fish and Wildlife Service, 
before any levee work could start it was necessary to create an 
80-acre mitigation preserve or site. $1.9 million was to be 
spent on this site, which was located on the river side of the 
Feather River levee. Further discussion by Federal resource 
agencies, including the Fish and Wildlife Service, added a 
large 17-foot deep pond to the mitigation project for the 
wetlands habitat adjacent to the levee wall.
    To make matters worse, the Corps committed to its 
mitigation project without consulting the agency charged with 
the maintenance of the levees, mainly District 784. Minutes 
from the RD 784 board meetings confirm that the Corps of 
Engineers was not familiar with the details of the local 
topography. The minutes further show questions raised by board 
Chairman Rex Archer that the Reclamation District 784 had not 
been told about the 17-foot deep pond and that the Reclamation 
District 784 objected to the construction of the pond so close 
to the levee. The minutes show that the Corps said, ``we will 
look into the problem.'' And the Corps re-

assured the board, ``it (the pond) would create no problem,'' 
besides, it would be ``very expensive to fill the hole back up 
again.''
    In further discussions in the same meeting, the minutes 
show that Reclamation District Manager of 784, Gene Anderson, 
the husband of Marian Anderson who was drowned as a direct 
result of the levee failure, expressed concern that, ``the hole 
dug'' by the Corps and required as part of the mitigation 
effort intercepted the original river channel which ran under 
the levee, which allows water to come up on the land side as 
boils. Finally, the minutes show that board attorney Steve 
Jones suggested the district should follow up with a letter 
voicing concern, giving a history of that section of the levee 
and stating that the Reclamation District 784 thinks a grievous 
error was made.
    Please let the record show that the minutes indicate that 
at the time the pond was dug in the middle of the summer, with 
the water at its lowest level in the river, seepage was noted 
on the land side of the levee after the pond was dug.
    My point, the disastrous levee failure in January of this 
year that claimed the lives of three of my constituents and 
injured many others, that flooded 500 homes and 9000 acres of 
prime farmland, displaced 35,000 people and flooded the 
employers in one of California's poorest counties, and 
simultaneously destroyed the $1.9 million mitigation project 
and major amounts of wildlife and additional habitat occurred 
at the lower end of the mitigation-site.
    As to the mitigation project, all of the seedlings, all of 
the shrubs and all of the beetles that have never been seen or 
whatever other habitat that existed are gone.
    I would like to add a footnote to this story which proves 
the adage that truth can be stranger than fiction. Keep in mind 
that the requirements that caused this disaster was not forced 
upon local people by some foreign occupying army. It was in 
fact the Government of the United States that instituted this 
plan and carried it to its conclusion.
    At both the Federal and State level statutes have been 
enacted, and you have enacted them and we in California have 
enacted them, the essence of which is to say to private owners 
and private managers be a manager, go to jail. Among other 
things, statutes say that any person who knowingly places 
another person in imminent danger of death or serious bodily 
injury is guilty of a public offense and shall upon conviction 
be punished by fine or imprisonment.
    I would hope that you would be willing to apply to the 
government bureaucrat managers the same standard you apply to 
private industry managers. In this particular case in point 
local people asked, in fact begged, Federal agency bureaucrat 
managers not to go forward with this project because it would 
cause a disaster, which it in fact did. Being forewarned and 
having no knowledge of local conditions, these government 
officials from afar, having run amuck and far from being under 
the control of the U.S. Congress, inflicted themselves on our 
community and caused the disaster that I have described to you.
    The law authorizing this agency, the law before us today, 
is a law that you should enact. Among other things, it seems 
too that you should also amend that law to provide that the 
people and the managers at the Federal level who caused this to 
happen after being forewarned are held personally responsible. 
This is a sad story. This was an avoidable tragedy, but in your 
hands is the opportunity not to allow it to ever happen again.
    [Statement of Bernie Richter may be found at end of 
hearing.]
    Mr. Pombo. Thank you. Mr. Baranek.

      STATEMENT OF JOHN BARANEK, PRESIDENT, HERZOG COMPANY

    Mr. Baranek. Thank you, Mr. Chairman, for the opportunity 
to testify today. My name is John Baranek. I am President and 
General Manager of the Herzog Company, a family farming 
corporation located in Courtland, California. I am a third 
generation steward of the land. My grandfather bought the land 
in the Courtland area in the 1890's and the land we presently 
farm in 1902. Our farm is comprised of 600 acres of premium 
wine grapes and 230 acres of levees, slough, and riparian 
habitat.
    As required by the House Rule 11, clause 2(g), my resume is 
attached which outlines my professional background in 
viticulture. Neither my corporation nor I personally are 
recipients of any Federal grants.
    The United States Fish and Wildlife Service, a bad 
neighbor. The Service began its involvement in Stone Lakes by 
creating an interagency policy group. This was made up of nine 
government agents and excluded landowners. It immediately 
proceeded to misrepresent to the public the true magnitude of 
its plans.
    Stone Lakes area property owners felt comfortable with the 
original 5000 acre refuge proposal in North Stone Lakes. Most 
of it was already under a combined ownership of the State of 
California and the County of Sacramento. To our surprise, at a 
meeting of the county board of supervisors in 1991 we were 
introduced to a 74,000 acre study area as a proposed refuge. 
The supervisors then instructed U.S. Fish and Wildlife Service 
to add two directors from local reclamation districts to the 
group. They were added, but the group never had another 
meeting.
    General public opposition forced the U.S. Fish and Wildlife 
Service to an EIS. The result was a reduction from the 74,000 
acre proposal to a 9000 acre core area, with an additional 9000 
acres in cooperative management. However, the current proposed 
boundary is still well in excess of the 5000 acre plan that was 
originally presented. We are also still waiting for a refuge 
management plan, which was supposed to be due or completed 
somewhere around 1994.
    The Sacramento County Board of Supervisors has supported 
the local residents and landowners throughout the ordeal. For 
the past several years, and recently as February 24, 1997, the 
supervisors have refused to sign a memorandum of understanding 
allowing the county land to join the refuge, primarily because 
of lack of a management plan.
    State and Federal officials representing Stone Lakes have 
also supported our efforts to get a straight answer from the 
willful misleading U.S. Fish and Wildlife Service bureaucrats 
in Sacramento and Portland. The Portland office, in its report 
to employees in February of 1993, acknowledged that its 
greatest problem was add-

ing land without adequate staffing or funding to handle these 
new acquisitions, and yet this power-hungry bureaucracy 
continues to expand its reach.
    Environmental concerns with the refuge. The location of the 
refuge, surrounded by levees that have flooded five times in 20 
years, is a crime. This bath tub effect acts like a large 
animal trap. Most species drown or are displaced to become feed 
for predators, or become road kill on the surrounding highways 
and roads. It does not make sense to intensify population of 
animals only to destroy them by man's good intentions.
    The Stone Lakes area is a major floodway for South 
Sacramento. In wet years, most of the refuge area floods. Major 
flooding has occurred in 1982, 1983, 1986, 1995 and most 
recently in January of 1997. Pictured in the accompanying 
exhibits in the back is a map. I have a better copy here if you 
can't see the Xerox copy. This is the 1986 flood which covers 
the entire refuge area. The refuge manager, Tom Harvey, admits 
major problems in achieving goals of the refuge. He stated in 
March of 1995, ``a huge body of scientific literature exists 
that proves that water level differences, even as small as a 
few centimeters, have a great effect on wetlands and riparian 
communities, especially on species establishment.''
    Regional sanitation district drainage and non-treated 
surface runoff from the Sacramento urban population flows 
through the Stone Lakes Refuge. Part of the water is then 
pumped into the Sacramento River at Freeport. The California 
State Water Control Board has identified the entire Beach Lake 
area, which is part of the North Stone Lakes, and adjacent 
Sacramento River from the towns of Freeport to Hood a candidate 
for toxic hot spots. These toxins may create health problems 
for migratory waterfowl and in an extreme case this could 
result in deformity of wildlife as happened in Kesterson Refuge 
near Los Banos, California.
    Most recently, the Service has considered new ways of 
managing the refuge. They have asked the county for a 
suspension of grazing prohibitions on the county owned land. 
They are considering controlled burns and livestock grazing, 
among other options. Actually, these are not new ideas. It is 
what local residents have been doing for over 100 years, to the 
benefit of wildlife abundant in the area.
    We need H.R. 512, which requires concurrence from both the 
Service and Congress in order to create a refuge. This will 
eliminate the kind of bureaucratic land grabbing over the 
objections of area residents that is occurring at Stone Lakes.
    In conclusion, Mr. Chairman, I have a bumper sticker that 
proposes what is best for people and wildlife in the Stone 
Lakes area. It says save the Delta from the Fish and Wildlife 
Service.
    [Statement of John Baranek may be found at end of hearing.]
    Mr. Pombo. Thank you. Mr. Craven.

          STATEMENT OF JEFF CRAVEN, CLOVERDALE, OREGON

    Mr. Craven. Thank you, Mr. Chairman, for the opportunity to 
testify today. My name is Jeff Craven. I am a fourth generation 
dairy farmer from Cloverdale, Oregon. Our farm has been in the 
family for 111 years.
    As a result of our farming practice, our pastures have 
become an important habitat for many species of geese, ducks 
and other wild-

life. The habitat is protected by zoning laws, till and removal 
laws and the Clean Water Act. In June 1990, landowners were 
notified that the refuge was being proposed in the Nestucca Bay 
area. The Nestucca Bay Refuge included 4800 acres, nearly all 
of the farmland in the Lower Nestucca drainage.
    We discovered that the one dairy farm had been purchased by 
the Nature Conservancy at the request of the U.S. Fish and 
Wildlife Service. We became very concerned about the impact of 
the proposed refuge on the local economy and on the dairy 
industry. Would our farm values be affected? What were the 
threats to wildlife? How would the short-grass goose habitat be 
maintained without the dairy farms?
    Within three months, the U.S. Fish and Wildlife Service had 
completed their draft environmental assessments for the 
proposed refuge. We could not accept the Fish and Wildlife 
Service's conclusion that Federal ownership and control was the 
best way to protect the habitat we were providing. We took the 
opportunity to comment on the draft environmental assessment, 
thinking we would be listened to.
    By December 1990, the final environmental assessment was 
complete. Our concerns were not addressed. No changes had been 
made to reflect public comment. The finding of no significant 
impact was due to become final after a 30-day comment period. 
We were totally frustrated. A last resort we hired legal 
counsel. With the help of local, State and Federal officials, 
we were able to put the project on hold, except for the 
purchase of the Nature Conservancy property that the Fish and 
Wildlife Service was committed to.
    We negotiated an agreement with the U.S. Fish and Wildlife 
Service to develop a cooperative resource management program to 
protect the goose habitat. The United States Fish and Wildlife 
Service recognizes the importance of the dairy industry in 
meeting the objective. We now have a memorandum of 
understanding between the United States Fish and Wildlife 
Service and local landowners that meet the objectives of 
providing habitat but still keeping lands in private ownership. 
The Service has revised the environmental assessments so that 
the preferred alternative is for the wildlife habitat to remain 
in private ownership. The acreage of the refuge area was also 
significantly reduced to more clearly identify important 
habitats.
    It has been five years since we signed the memorandum of 
understanding with the United States Fish and Wildlife Service. 
Our dairy farms have continued to provide the important habitat 
to wintering Canadian goose populations. There has been no 
habitat loss, nor has there been any threat to the habitat 
identified. Despite a few promises to operate the refuge 
property as a dairy, it has been out of production for five 
years. The Service now relies on the remaining area farmers to 
maintain the short-grass habitat that the geese need. Fish and 
Wildlife Service has struggled to establish a management plan 
and gain funding to provide habitat.
    Mr. Chairman, I believe H.R. 512 will help prevent some of 
the mistakes that happened in our situation from being made. We 
were lucky. We were able to come to a reasonable solution, but 
at a cost that was high both financially and emotionally. With 
the Congres-

sional oversight provided by H.R. 512, I believe that creative 
solutions are more likely to be found. There are better ways to 
protect wildlife than converting private land to public, and 
Congress and the American people need more opportunities to 
explore that. Thank you.
    [Statement of Jeff Craven may be found at end of hearing.]
    Mr. Pombo. Thank you, Mr. Craven. Mr. Dan Beard.

  STATEMENT OF DANIEL BEARD, VICE PRESIDENT, NATIONAL AUDUBON 
                            SOCIETY

    Mr. Beard. Thank you, Mr. Chairman. I really appreciate the 
opportunity to be here today on behalf of the 550,000 members 
of the National Audubon Society, who are located in 520 
chapters throughout the United States, Canada and Central 
America.
    The National Audubon Society has been involved with the 
National Wildlife Refuge System since its inception. In fact, 
after the establishment of the first refuges, the Audubon 
Society paid for the managers of those refuges, two of whom 
were killed in the line of duty.
    In the last year, our board of directors has approved the 
establishment of a national campaign to provide assistance to 
the National Wildlife Refuge System. We have created a National 
Wildlife Refuge Campaign. We have hired a campaign director, 
and we are systematically undertaking a wide assortment of 
activities to try to involve our members in assisting refuge 
managers to preserve and protect the resources that they 
manage.
    I think it is important as we look at this legislation to 
remember that the National Wildlife Refuge System, as Secretary 
Babbitt pointed out, is very unique. It is the only one of its 
kind in the world. And this refuge system does have 
international importance. We should only make changes in the 
system of laws and policies which provide a foundation for the 
system with great care. I think everybody who you have heard 
testimony from today would agree that there is a need for a 
permanent policy foundation for the system, that something is 
lacking, but the question is what should that policy foundation 
be and what should it say.
    There has been a consistent thread over the last 94 years 
dealing with the National Wildlife Refuge System. That 
consistent thread has been that wildlife comes first in 
national wildlife refuges. This is why each refuge was 
established in the first place. That is why the system was 
established. And there is substantial Congressional direction 
to that effect going back as far as 1934 with the Duck Stamp 
Act, 1962 with the Refuge Recreation Act, 1966 with the Refuge 
System Administration Act.
    In our view, H.R. 511 would deviate from 94 years of policy 
direction. And the question is why. In our view, no compelling 
case has been made that there is a need to change the policy 
direction that we have been pursuing nearly 100 years. I think 
it is very important for us to remember why we established the 
system in the first place. Each area is unique. Each refuge is 
unique. It protects unique resources and unique values. And in 
each case we are protecting wildlife, either birds or other 
wildlife for a special reason. And that reason has either been 
determined to be important by the director of the Fish and 
Wildlife Service, the Secretary or the Congress itself.
    The challenge I think we all face is how do we manage these 
lands. And the most difficult challenge we have is how do we 
manage the people and the associated uses. In our view, we must 
protect wildlife first and foremost, which is the reason that 
we set these lands aside. Protection of wildlife ought to be 
the highest priority for the use of these lands. This has been 
the policy to date.
    Secondly, we believe there are a second tier of uses which 
are fundamentally important. These are wildlife-dependent uses 
such as hunting, fishing, and wildlife observation. They ought 
to have a priority over all other uses which are not consistent 
with wildlife. These are sort of general recreational uses that 
oftentimes conflict with wildlife and wildlife-dependent uses 
of those refuges.
    I would point out, Mr. Chairman, that I think we are much 
closer on consensus legislation than a lot of the discussion 
has left the impression with today. Should we have a bill? I 
think people agree that we do need a bill to provide a solid 
foundation. And we all agree that there ought to be a 
foundation. How should we implement this legislation? I think 
we all agree on how to do that, through a public planning 
process that involves the refuge managers and citizens.
    The only question we have left is what place should 
wildlife have in this debate. We were not far off at the end of 
the 103rd Congress. We reached compromise on a bill, but 
unfortunately we ran out of time to get it enacted. We think we 
can reach agreement again. And I would urge that we take the 
opportunity suggested by Mr. Peterson and others to take the 
next month or so to try to sit down and see if it is possible 
to resolve the differences among the various groups which are 
here and have testified today on this legislation.
    Thank you, Mr. Chairman, for the opportunity to be with 
you.
    [Statement of Daniel Beard may be found at end of hearing.]
    Mr. Pombo. Thank you. Mr. Dewey.

   STATEMENT OF ROBERT DEWEY, DIRECTOR, HABITAT CONSERVATION 
                DIVISION, DEFENDERS OF WILDLIFE

    Mr. Dewey. Yes, thank you, Mr. Chairman. I am Robert Dewey. 
I am Director of the Habitat Conservation Division at Defenders 
of Wildlife. First of all, I just want to thank you for the 
opportunity to substitute for Roger Schlickeisen, the president 
of our group. He had a previous speaking engagement, and I am 
sorry he wasn't able to stay. The hearing has run long. I will 
try and be brief.
    First I would like to thank the committee for its interest 
in the future of the National Wildlife Refuge System. Defenders 
has long believed that additional statutory direction could 
provide the system with greater unity of purpose, future 
direction, and the expanded authorities needed to strengthen 
its ability to conserve fish, wildlife, and plants. H.R. 511 
attempts to tackle many of these complex issues.
    But make no mistake about it, Mr. Chairman, we believe that 
legislation to accomplish the over-arching goal of H.R. 511, 
expanding recreational activities, would fundamentally weaken 
the refuge system. We strongly oppose enactment of H.R. 511 and 
the closely related bill, H.R. 512.
    Defenders believes H.R. 511 contains numerous provisions 
which collectively would cause a dramatic and historic shift in 
the refuge system. This shift would be away from wildlife 
conservation and toward increased public use. The bill would 
take the refuge system away from the conservation ethic that 
has been its cornerstone ever since its founding by Theodore 
Roosevelt 94 years ago.
    With 4500 secondary uses now permitted on national wildlife 
refuges, Defenders also questions the need for the bill. 
Providing recreational activities, in particular, is already an 
extremely high priority. Hunting, for example, now occurs on 
over half the national wildlife refuges. Just last year 
President Clinton further amplified the emphasis on 
recreational activities in an executive order.
    Recreational activities should have an important role in 
the refuge system. They should not, however, be elevated to 
such a priority that they are placed in direct competition with 
wildlife conservation for management priority and funding. When 
this happens, resource and recreational enthusiasts both lose.
    H.R. 511 damages the refuge system in four principal 
respects. First, the bill undermines Fish and Wildlife 
Service's ability to effectively regulate certain secondary 
uses. It would essentially establish a separate and weaker 
compatibility standard for some types of recreational 
activities. This would occur through the subtle interaction of 
various provisions relating to definitions, system purposes and 
compatibility standards. The net effect of these provisions is 
to give certain uses special and preferential treatment. 
Defenders believes that all uses, including ones that are 
wildlife dependent, should be held to the same effective 
regulatory standard.
    The second fundamental concern relates to the fact that the 
bill makes certain recreational activities coequal with 
wildlife conservation as purposes of the system. While various 
types of recreational activities and environmental education 
should play an important role in the refuge system, they should 
not be afforded equal status with the system's wildlife 
conservation purposes.
    Another one of Defenders greatest concerns relates to the 
impact this legislation would likely have on Fish and Wildlife 
Service's already insufficient budget. This bill is likely to 
force the Fish and Wildlife Service to devote increased agency 
resources and staff to recreational uses, which would 
ultimately come at the expense of wildlife conservation 
programs.
    A fourth concern relates to the future management emphasis 
of the wildlife refuge system. The bill focuses the system on 
providing more recreational activities while ignoring 
increasingly important management challenges relating to 
biological diversity. The absence of diversity languages in the 
purposes section of H.R. 511 is likely to discourage the Fish 
and Wildlife Service from ever making biological diversity an 
important management consideration.
    As the Nation approaches the 21st Century, this is simply 
unacceptable for the only network of Federal lands established 
to conserve fish and wildlife.
    Let me now just briefly turn to H.R. 512. This bill would 
erect a substantial new roadblock to the acquisition of habitat 
by requiring a separate Congressional authorization in addition 
to the al-

ready-required appropriation law, before any land and water 
conservation funds can be used for the establishment of a new 
refuge. Even under the existing acquisition process, landowners 
are routinely told by the Fish and Wildlife Service that they 
must wait at least one and a half to two years for Congress to 
appropriate funds. Requiring Congress to enact an additional 
law could effectively stymie the protection of biologically 
important and imperiled wildlife habitat.
    In closing, Defenders has long recognized the need for 
greater statutory authority for the refuge system. Although we 
believe that the system would be better served by current law 
than the changes proposed in H.R. 511, we also think the system 
could benefit from enactment of a bill along the lines of the 
Theodore Roosevelt Wildlife Legacy Act [H.R. 952]. This bill 
was introduced just yesterday by Representative George Miller. 
It establishes management objectives vital to the functioning 
of the National Wildlife Refuge System in the 21st Century, and 
does so without threatening the integrity of the system. The 
Roosevelt Act provides a constructive approach. We urge the 
committee to consider it as an alternative to H.R. 511.
    This concludes my remarks. I would be glad to answer any 
questions that the committee might have.
    [Statement of Rodger Schlickeisen may be found at end of 
hearing.]
    Mr. Pombo. Well, thank you very much. Mr. Dewey, in your 
testimony, when I read it yesterday, you state that--in 
reference to H.R. 512, that it would require additional 
legislation, which it would. It would require a Congressional 
authorization before a wildlife refuge can be started. But you 
state in here that the already-required appropriation law--the 
way that the system has operated, yes, there is the requirement 
that an appropriation be drafted, but there is no requirement 
that that occur before the refuge is put on the map. And they 
can establish the refuge and then come in and lobby Congress 
for money to buy the property. And that is one of the problems.
    And I don't know if you paid attention to some of the 
testimony from some of your fellow panelists, but that was one 
of the problems that we faced, is that the refuge will be 
established, it will be put on the map, and then they will come 
in and ask for money to purchase the private property that is 
included in that.
    And the idea behind H.R. 512 is that some of these problems 
can be avoided if there is Congressional oversight before 
someone comes in and asks for an appropriation to purchase 
land. And that is the purpose behind that. And I just wanted to 
clarify that, because in reading your testimony I don't think 
it was exactly clear as to actually how this works.
    Do you or did you support the President's Executive Order 
that has been referred to so many times today?
    Mr. Dewey. The President's Executive Order provides 
emphasis on recreational activities in the Wildlife Refuge 
System. In general, I would say there are many elements of the 
Executive Order that we do support. The concept that several 
people have alluded to about the hierarchy of uses with respect 
to prioritizing certain wildlife-dependent uses over non-
wildlife-dependent uses is a use-

ful model and was probably one of the cornerstones of the 
Executive Order.
    The other fundamental principle in the Executive Order was 
this important distinction between purposes of the system and 
uses of the system. In fact, this a critical distinction that 
was reflected very strongly in the bill I mentioned earlier, 
the Theodore Roosevelt Wildlife Protection Act. That bill was 
introduced yesterday by Mr. Miller and establishes priority 
public uses. And this is a bill that we strongly support. So to 
that extent, I think Defenders is enthusiastic about the 
President's Executive Order.
    There are certain aspects of the Executive Order that are 
of concern to us and I would find particularly troublesome if 
they were codified in the context of statutory language. 
Certain language suggests that additional resources in the 
management of the system should go toward recreation. It is one 
thing to state that in an Executive Order and another to do so 
in a statute. The Executive Order also makes clear that this 
priority is in the context of existing laws, which include a 
provision in the 1962 Refuge Recreation Act that requires that 
funding be available before uses are allowed. Codification of 
the Executive Order without clarification of that point would 
be a mistake.
    Mr. Pombo. Let me ask you specifically, does your 
organization support hunting and fishing within the system, 
within the Wildlife Refuge System?
    Mr. Dewey. We look at hunting and fishing on a case-by-case 
basis. We are not an organization that opposes hunting per se 
or supports it per se. I think that inference that you might 
draw from that is in the context of the refuge system we are 
interested in activities that are compatible with the purposes 
for which a refuge was established. The Fish and Wildlife 
Service has determined in many cases that hunting and fishing 
are compatible with those purposes, and I think we accept that.
    Mr. Pombo. Mr. Beard, along the same testimony, does your 
organization support the Executive Order of the President and 
the purposes that were outlined in that Executive Order?
    Mr. Beard. Yes, we supported the Executive Order at the 
time that it was issued. Yes.
    Mr. Pombo. Do you support hunting and fishing within the 
refuge system?
    Mr. Beard. Yes, where it is appropriate. That determination 
has to be made by the relevant official, which could be the 
Congress, the Secretary or the Director of the Fish and 
Wildlife Service, but yes, we support hunting.
    Mr. Pombo. Thank you. Mr. Richter, Assemblyman Richter, in 
your testimony you talked about the creation of a refuge 
habitat area along the river within your district. Is it your 
opinion that if proper oversight had been given to that 
particular situation before it was created that it would have 
been created in the place it was or in the manner that it was?
    Mr. Richter. It is my view that if the Federal officials 
had the knowledge that local people had, and had they been 
willing to listen to local people, and even after they had 
constructed it, as I mentioned to you, the record clearly shows 
that water was leaking out on the land side of the levee when 
there was no--when the lev-

ees didn't have any water, really, between them, when it was in 
the summertime. Had they been willing to accept that 
information and evaluate it and weigh it so that it would 
affect the decision that even had already been made, they would 
have reversed themselves.
    I might tell you that there was a multitude of evidence. 
Basically what you have in this whole area is silt that is 
anywhere from 30 to 40 feet deep that has come down with the 
gold mining that took place in the middle of the 19th Century. 
It has raised the elevation of the valley and those areas by 
that much. That silt acts like a kind of a seal over the old 
river bed, which winds around and under this. Mappings clearly 
show where the old river bed was. In this particular case, the 
objection to the preserve and the pond that I referred to 
indicated that the old river bed ran right under the levee near 
or adjacent or right on where the pond was being built.
    We had testimony after the 1986 disaster, which many people 
died in and it was a much greater disaster in the residential 
area of Linda and Solano, of the area that I represent. We had 
a civil court trial in 1992 in which Mr. Mayhan, an engineer, 
laid out maps showing exactly where these underground--the old 
river beds were. And he predicted in that civil trial that the 
next break in the levee would take place almost exactly where 
it took place. And that was without the pond being dug.
    So my answer to you is that what we had were people come 
from the outside, decide to do a project, no control, for 
whatever good reasons they had--and I certainly don't question 
their motives here, but I am questioning their judgment and 
their knowledge of what was going on. Disregard local people, 
don't take any advice, go ahead with the project, not even 
notify the agency that was charged with the maintenance of the 
levee, and create something that turned into a huge disaster 
costing tens of millions of dollars and people's lives.
    Yes, they did disregard the information that was available, 
went ahead with the project, and local people were helpless to 
do anything about it.
    Mr. Pombo. Thank you. Mr. Baranek, in your statement 
dealing with the Stone Lakes Wildlife Refuge, we had testimony 
earlier today or a comment from one of the members that the 
wildlife are a bottom-up plan, that they are requested by local 
people, that the management plan for the area is designed with 
the input of local people. In your experience with the Stone 
Lakes Wildlife Refuge, was that the case?
    Mr. Baranek. Well, in Stone Lakes--the Stone Lakes area has 
a long history of Federal involvement. At one time the Corps of 
Engineers wanted to make a retardation base out of it and so 
forth. Well, there is a lot of complicated things that led up 
to everything that is there, but to make it very simple a group 
of developers, local government and various--I don't know, you 
would call it a consortium or allies of wildlife and so forth--
put together a unit and invited Fish and Wildlife Service to 
come in the area, excluding the landowners that were basically 
involved. And like I mentioned, we were misled, thinking it was 
this area in North Stone Lakes, and they had far-reaching 
effects. So what happened is we had no local input as far as 
the landowners put into the whole planning process. And so we 
ended up with something that really shouldn't be a refuge at 
the level that they have designed it for.
    Mr. Pombo. Is that area in any danger of urbanization?
    Mr. Baranek. The South Stone Lakes area absolutely never 
was in that position. North Stone Lakes, there was some 
developers that owned property that originally wanted to 
develop that property, but they realized because it was a 
floodplain they couldn't develop it and they wanted to get some 
monetary returns out of it. So it ended up being a good 
mitigation bank and ended up being paid fairly handily and 
walked away from the project and got what they wanted. And I 
think it is a good area for an interpretive center for the 
inner city. I think for a small-type refuge that we can invite 
the public out and show them what is going on, I think it has 
very good effects. But this whole full-blown refuge is just 
going to be a big animal trap.
    Mr. Pombo. You say a small refuge, urban-type refuge. You 
are talking about 5000 acres in the Sacramento area.
    Mr. Baranek. Yes, but that is already under public 
ownership. And there is the State of California, the regional 
sanitation district and the State of California and CAL Trans. 
CAL Trans has the mitigation bank in there. And it probably is 
a good area for a small-type refuge. But to expand it beyond 
that point, the rural area through cooperative agreements and 
so forth and working with the wildlife can do an awful lot of 
things without any land purchases at all. And the boundary, 
what it does is encumbers all this property to where it limits 
it as to what its future is.
    Mr. Pombo. If H.R. 512 had been law, say, five years ago, 
how would it have changed the outcome with the South Stone 
Lakes area?
    Mr. Baranek. Well, I personally feel that if the law--and 
we had an impartial oversight, we would have a 5000 acre refuge 
today. It would have never expanded beyond that point. All 
these problems would have been brought forward and they would 
have seen the waste of taxpayer's money down the road in 
establishing wildlife habitat that probably never is going to 
achieve what goals--and here we have no management plan and we 
still don't know what they want to do and how it is going to 
impact everybody. All we can visually see is what is really 
going on.
    Mr. Pombo. The property owners never opposed the North 
Stone Lakes area?
    Mr. Baranek. No, there was no opposition. And this is why 
when you hear all of the environmental people in the area 
saying there was overwhelming support for the refuge, the 6000 
comments, because all of us did comment that we supported North 
Stone Lakes. And so there was no opposition from the farming 
and landowner community. We supported it. In fact, it was going 
to do something with that county ground that was just lying 
there doing nothing.
    It was originally going to be a county park and other 
things and the county has no money and so they thought they 
would bring the Federal Government in that would bring extra 
money into the area that would do something with that. And we 
all support that, so we are not against the refuge system per 
se, but we are against the agency that is out of control, that 
will not listen to local landowners and constituents to design 
a better refuge and spend tax-
payers dollars better. And what it ends up doing is committing 
you to funds for things that probably shouldn't be there.
    I would invite your whole committee to come out and really 
take a look at it.
    Mr. Pombo. Maybe we can talk them into it.
    Mr. Abercrombie. You have got to talk them into giving us 
the money first to come out. So if somebody complains in 
somebody else's constituency, why, you will be there to defend 
us, right?
    Mr. Baranek. We will be there to defend you.
    Mr. Abercrombie. Thank you.
    Mr. Baranek. No, but I think it is important that we have 
that impartial review process. And that is why I do support 
this bill.
    Mr. Abercrombie. Does that include the committee coming out 
to Hawaii?
    Mr. Pombo. I don't think we are going to touch that one.
    Mr. Craven, do you believe that the public participation 
process used by Fish and Wildlife Service was fair and open in 
your experience?
    Mr. Craven. Not at all. Our experience was Fish and 
Wildlife Service had already cooked the deal with Nature 
Conservancy to make this a wildlife refuge. They had gone ahead 
and made verbal commitments for reimbursement to the Nature 
Conservancy if they would purchase the property and therefore 
become the willing seller. I guess a good way of putting it is 
the train had already left the station by the time we heard 
about it. Fish and Wildlife Service had no intentions of 
moderating their plans or making any other changes, deviation 
from their plan through the whole process. The only thing that 
brought them around to even working with us was the threat of 
losing funding through the appropriations committee. And that 
is what brought them back to the table. Otherwise they would 
have steamrolled us.
    Mr. Pombo. When this refuge was put on the map or when you 
were made aware of it, had there been an appropriation?
    Mr. Craven. No. No, there hadn't.
    Mr. Pombo. So this was created without Congressional 
consent?
    Mr. Craven. That is right, and created by Portland Region 
Fish and Wildlife Service almost taking on a life of their own, 
I guess.
    Mr. Pombo. So in your--what you are telling me is that they 
had the ability to go out and create a refuge and then after 
that happened, then they would come in and request funding in 
order to buy what they already created?
    Mr. Craven. Right, in essence. It is not quite--they didn't 
actually create the refuge. They created the concept, but they 
already had the--the Nature Conservancy had bought the land 
that they wanted to give them the justification of having a 
willing seller. They kept telling us well, they had a willing 
seller, that is why they had the--you know, they could go ahead 
and justify the refuge.
    Mr. Pombo. I don't remember. Did Fish and Wildlife Service 
eventually buy that?
    Mr. Craven. Yes, they did.
    Mr. Pombo. They did buy it from----
    Mr. Craven. Yes, they did. That was one real strong 
stipulation they had when we made any settlements with them, 
was that that had to be--they had to reimburse Nature 
Conservancy because Nature Conservancy had gone out on a limb 
on their behalf.
    Mr. Pombo. Did they actually tell you that?
    Mr. Craven. Yes, we have documentation of that, of them 
admitting that, yes.
    Mr. Pombo. Can you provide that to the committee?
    Mr. Craven. Yes, I could. I don't have it today, but I can 
get that sent to you, absolutely.
    Mr. Pombo. Please provide that for the committee. I think 
that that is a serious issue that we have dealt with in the 
past, and if you do have documentation on that, please provide 
it for the record.
    You say in your testimony that you entered into an MOU with 
Fish and Wildlife Service to manage it as a wildlife area or to 
benefit the wildlife in the area. I take from that that the 
farmers in the area didn't oppose wildlife or weren't in some 
way trying to get rid of the wildlife that was in the area?
    Mr. Craven. Absolutely not. The wildlife are there because 
of us, and we have always taken it in stride. In fact, hunters 
had--where the endangered species was had already--the only 
reason the endangered species was there, they shut off hunting 
30 years ago and let the species continue to survive there. It 
is a very small, 120 head of geese that winter there. That is 
the only thing that we are concerned about. And it was through 
private farming activities that preserved those geese to begin 
with.
    Mr. Pombo. Well, thank you very much.Mr. Abercrombie.
    Mr. Abercrombie. Thank you very much, Mr. Chairman. 
Assemblyman Richter, you tell a very compelling story, but I am 
not precisely sure how 511 and 512 relate to that, particularly 
in the light of the Army Corps of Engineer activity. I wonder 
if you have some suggestions with respect to the language of 
the bill that would address the question that you raise, or 
maybe you didn't raise it exactly but what is implicit in your 
testimony that the refuge--I don't quite get the connection 
between the refuge act itself and rules, regulations or 
procedures which may have been either inadequate or perhaps 
even civilly liable.
    Mr. Richter. OK, the refuge was--the lead agency in all of 
this was the Corps, however in putting together the so-called 
refuge and the mitigation they were--in regards to the 
elderberry preserve and the marshland that was created, they 
were doing what Fish and Wildlife Service people wanted them to 
do. And in that case, although they were the lead agency 
responsible for it, they were doing--they were complying with 
the requirements of that agency.
    As I sat here listening to all of this discussion, I was 
thinking that in my judgment there ought to be, whether in this 
statute, there ought to be a categorical exemption from the 
Fish and Wildlife Service, or any other agency that is involved 
in so-called species preservation, from having jurisdictions on 
dams and levees, on the walls of dams and levees. They ought to 
be just categorically exempt from doing that.
    I mean, it would be--you know, Oroville Dam, which is one 
of the largest earth-fill dams in the world, which is in my 
district, is a--has sides where things could grow. Hopefully, 
you know, the statutes do not have people trying to grow things 
on the side of that dam or allowing animals or natural elements 
to burrow into the dam so as to ultimately undermine it, but--
--
    Mr. Abercrombie. I understand.
    Mr. Richter. [continuing]--and I am sure it wouldn't, but 
levees are--what people don't understand, and I have a statute 
to require standards for levees, not the same as dams, but 
standards. We don't have any standards for levees in 
California. I don't know that we have any standards anywhere in 
the United States for the standards for the construction of 
levees. And my position is that a levee is a dam and its 
foremost and primary function is to protect the urban areas 
that these levees are around from being inundated and flooded. 
It is not appropriate that somebody is trying to grow bushes or 
trees--and that is another thing I didn't even mention, trees 
on the sides of these levees and then when the water rises the 
trees wash out and a huge hole is created in the levee as the 
tree creates this--with all of the roots and everything going 
downstream.
    But the fact is that the relationship that I am saying is 
that it was Fish and Wildlife Service that came up with the 
refuge, if you will, and the pond. That was their solution to 
the problem of the beetle.
    Mr. Abercrombie. I understand that. The reason that I was 
speaking to you first is because you understand the legislative 
responsibilities that accrue to any legislative body. They are 
all similar. They may be of different context, but the process 
is the same, because you were quite adamant about the idea, and 
I think this reflects also what Mr. Baranek and Mr. Craven were 
referring to, is whether or not you can get local input, 
perspective, experience, history, all of which can and should 
bear a direct relationship to what kind of decision is made.
    Mr. Richter. That is correct.
    Mr. Abercrombie. But precisely for that reason, I think you 
would find some of us a bit reluctant to insert a Congressional 
decision. We all represent different constituencies. While I 
quite welcome the idea of coming out to visit where you are, 
Mr. Baranek, I would be very hesitant to vote on something here 
anymore than I would be--not that I have any doubt as to the 
integrity and the purposefulness and good will and intentions 
of any member here, but if it comes to, say, a whale sanctuary 
in Hawaii, it would be very--I would find it difficult to ask 
others to say well, just trust me on this and vote. So I am not 
quite sure where we would be going with the legislation to 
answer the very real problem that--other than the standard.
    That was a good suggestion you made about perhaps where 
levees and dams are concerned we need to consider legislation 
as to how that issue should be addressed, but I am interested 
in what we could do institutionally here, legislatively here, 
to be of assistance in these circumstances rather than becoming 
a kind of court of last vote.
    Mr. Richter. Well, I guess----
    Mr. Abercrombie. Court of first vote, even.
    Mr. Richter. Let me put it this way, and we do have similar 
functions. And this is--you have raised some very good 
questions that you would be asked to vote on something you 
don't have knowledge of and so on, but I would much rather deal 
with you and have my Congressman, whether it be a Democrat or a 
Republican representing my district, who understood that he is 
not going to be a representative if he doesn't understand some 
of these things that are going on in the district. Believe me, 
no matter what party he is from, I would rather have that 
Congressman talking to you about what the problems are with 
this particular refuge than for me to try to deal with some--I 
hate to say this--some bureaucrat manager who is not beholden 
to the voters of the district and does not have any connection 
to the voters of the district. And that is a much preferable 
system to appealing it to people that don't listen. I mean, the 
story here of these people attempting to get these guys to 
listen is incredible. It is really--it is almost like fiction. 
You couldn't have written it. They did everything to get them 
to recognize the mistake they were making. They never did 
recognize it. They never did acknowledge it. If it were in your 
hands, a committee or whatever, yes, you don't know but the guy 
who represents this district knows and he is going to talk to 
you. And he is going to say listen, there are problems here. 
Maybe you would make the wrong decision.
    Mr. Abercrombie. Would it be fair to say that also to avoid 
the idea of pork barrelling, which we are accused of all the 
time in that context, I suppose you don't escape it either.
    Mr. Richter. Well, I have been in the minority a lot of the 
time, so we didn't get any of the pork, but I----
    Mr. Abercrombie. Well, see, that is what I am saying. I 
don't really consider that. I consider it a public investment. 
But, you know, we could be subject to that. In other words, 
there could be local considerations. You could have--and 
presumably we at least have the aim that the government agency 
is trying to act for the common good and in the public 
interest. So there is a necessary tension there between local 
knowledge and desires and the public interest and how to work 
that together. That is what we want to get the legislation to 
aim at.
    If we could do that, perhaps with Congressional 
authorization as is suggested in the legislation here, with 
some provisions that insure that we just don't simply end up 
with a local special interest being accommodated at the expense 
of the common good, even including in the local area, right, 
because politics is politics whether it is at the village or 
the levee and dam level or whether it is at the White House and 
the various national committees. The political process is still 
the same. So that--we need to work that tension out in a way 
that accomplishes this.
    Mr. Richter. The bureaucracy, I think, under this 
legislation, or certainly under the way it is now, is well 
represented.
    Mr. Abercrombie. OK.
    Mr. Richter. And I don't think that we have to worry about 
the bureaucracy not being heard and not making their points. 
They do it quite well.
    Mr. Abercrombie. OK, in that context, then. Thank you very 
much, Mr. Assemblyman. I appreciate your candor and your 
insight.
    In that context, Mr. Beard--and I must say, Mr. Chairman, 
for purposes of the record Mr. Beard and I are old friends and 
that he very ably served the people of this country when he 
worked here in United States Congress.
    And also you, Mr. Dewey, taking into account the testimony 
and for conversation sake let us accept the premises of the two 
gentlemen to your left and what Mister--what Assemblyman 
Richter was positing. How do we have the public interest--which 
again for conversation sake I will say that you represent here 
at this table and grant you your good intentions and good will. 
How is the public interest, then, to be--in the context of 
these bills, how is the public interest to be represented 
simultaneously taking into account, properly taking into 
account local knowledge, history, respective, et cetera?
    Mr. Beard. Is the question for me?
    Mr. Abercrombie. Yes, for both of you. How is this to be 
accomplished? Or if this bill doesn't accomplish that, can you 
suggest how these bills--how could that be accomplished? 
Although I know that Mr. Dewey, I believe, said that he with 
just a preliminary reading is probably supportive of the 
Wildlife Legacy Act that Mr. Miller introduced.
    Mr. Beard. Well, in my view both H.R. 511 and Mr. Miller's 
bill, really address that particular issue in essentially the 
same way. The Congress lays out the rules on how the system 
ought to be managed and how various uses ought to be treated, 
and then there is a public process, public planning process, 
which is undertaken for each refuge.
    Mr. Abercrombie. So would you agree----
    Mr. Beard. And so there is a debate at that time----
    Mr. Abercrombie. OK.
    Mr. Beard. [continuing]--on how you manage----
    Mr. Abercrombie. Would you agree, then, Mr. Dewey, that as 
it stands now, then, perhaps, there is not sufficient 
Congressional legislation direction as to how this should take 
place and it is left too much in the--within the purview, say, 
of Fish and Wildlife Service or whoever it might be to act or 
not act lacking that direction, Congressional direction and 
law?
    Mr. Dewey. You had alluded to the legislation I indicated 
support for, the Roosevelt Act. That bill has provisions 
regarding Congressional direction for planning on national 
wildlife refuges. I think that would be a useful thing, 
statutory direction to have. I think----
    Mr. Abercrombie. Do you think it would address the concerns 
raised by the other three gentlemen at the table?
    Mr. Dewey. I don't know in a particular, in a specific 
context.
    Mr. Abercrombie. No, I am not asking that, but I am saying 
is it your understanding the intention of the bill is to try to 
address not the specific concerns but generically what has 
obviously caused great consternation to Mr. Baranek and Mr. 
Craven and obviously Assemblyman Richter's constituents.
    Mr. Dewey. One of the fundamental goals of the Roosevelt 
Act is to ensure adequate public participation in 
decisionmaking by the Fish and Wildlife Service affecting 
refuges. It does so through provisions relating to the planning 
process that applies to individual refuges.
    Mr. Abercrombie. It would be Congressionally mandated?
    Mr. Dewey. Right.
    Mr. Abercrombie. Is that your--you haven't read the bill, 
Mr. Beard, yet?
    Mr. Beard. Yes.
    Mr. Abercrombie. You have? Is that your understanding also?
    Mr. Beard. Yes.
    Mr. Abercrombie. Congressionally mandated?
    Mr. Beard. Yes.
    Mr. Abercrombie. OK, that is all I have, Mr. Chairman. 
Thank you very much. I appreciate this panel and the 
composition of it. I think it enlightens the committee.
    Mr. Pombo. Well, thank you, Mr. Abercrombie. I just had one 
follow-up question for Mr. Baranek and Mr. Craven. You both 
stated that you dealt with the Portland Office of Fish and 
Wildlife Service. Do either of you happen to know the name of 
the person that you dealt with?
    Mr. Craven. Yes.
    Mr. Pombo. Excuse me?
    Mr. Craven. John Dobul. He is Assistant Regional Director, 
I believe, or was at that time.
    Mr. Pombo. Mr. Baranek, do you happen to know?
    Mr. Baranek. Yes, it was John Dobul who we dealt with. And 
Peter Jerome, the lead person locally, said John Dobul is still 
in that position. He is the Assistant Regional Manager.
    Mr. Pombo. He is still there?
    Mr. Baranek. He still is there.
    Mr. Pombo. OK, thank you very much. And I would like to 
thank the panel very much for your testimony and especially for 
your patience in sticking around all day with this. I really do 
appreciate that. Thank you. The hearing is adjourned.
    [Whereupon, at 2:00 p.m., the Subcommittee was adjourned; 
and the following was submitted for the record:]

    Statement of William Horn, Wildlife Legislative Fund of America

    Mr. Chairman:
    My name is William Horn and I am appearing on behalf of the 
Wildlife Legislative Fund of America (WLFA) and the 1.5 million 
hunters, anglers, and conservationists it represents. We 
greatly appreciate the opportunity to appear today and present 
testimony in strong support of H.R. 511.
    The National Wildlife Refuge System represents 92 million 
acres of public land dedicated to wildlife conservation. With 
units in all 50 states, the System conserves a vast array of 
habitats and associated fish and wildlife. These public lands 
also provide irreplaceable recreational opportunities to hunt, 
fish, bird watch, and interact with North America's wildlife.
    H.R. 511 would provide an organic act for the Refuge system 
and clearly spell out its mission and purposes to carry it into 
the 21st Century. It is a carefully refined measure that 
reflects the 1994 efforts of Senators Max Baucus (D-MT) and Bob 
Graham (D-FL), the bi-partisan leadership of the House 
Congressional Sportsmen's Caucus in the 104th Congress, 
contributions by the state fish and wildlife agencies via the 
International Association for Fish and Wildlife Agencies, and 
work by dozens of sporting conservation organizations. That 
careful work persuaded the House to pass essentially the same 
bill by a lopsided bi-partisan two-to-one majority on April 24, 
1996.
    This year's measure reflects further refinement. The WLFA 
supports the changes in H.R. 511 and is convinced that issues 
regarding land acquisition authorization, military overflights, 
and the consequences of government shutdowns should be dealt 
with in separate measures.
    It is also apparent that, with one exception, there is 
wide-spread support for the bill's provisions. There seems to 
be little argument about the provisions specifying wildlife 
conservation as the system mission, defining the compatibility 
process, establishing Refuge unit planning requirements, 
recognizing state primacy over fishing and hunting regulation, 
expressly preserving Refuge water rights, and requiring that 
management decisions be based on scientific data and 
principles.
    The debate focuses instead on one provision--Section 4(d)--
which states that one of the six purposes of the Refuge system 
is ``to provide opportunities for compatible uses of refuges, 
consisting of fish and wildlife dependent recreation, including 
fishing, hunting, wildlife observation, and environmental 
education.''
    Read this provision carefully. It does not mandate fishing 
and hunting on all Refuge units. It does require that fishing 
and hunting be compatible uses. It does not ``commercialize'' 
the Refuge system nor does it eliminate the wildlife 
conservation mission of the System. Note too that this is one 
of six specified purposes; the other five are (1) habitat 
conservation, (2) conservation of migratory birds, (3) 
conservation and restoration of endangered species, (4) 
conservation of anadromous fish, and (5) fulfillment of 
international treaty obligations.
    Why is it important to have compatible fishing and hunting 
made a purpose of the system? Very simple--the sporting 
community needs a statutory shield from the animal rights 
fanatics who have made it their mission to terminate all 
fishing and hunting on the public's Refuge lands. The Fish and 
Wildlife Service has had to fight off lawsuits seeking to end 
hunting. And in virtually every Congress, bills are introduced 
to end these activities on Refuge lands. Making these 
activities merely a ``priority use'' gives America anglers and 
hunters short shrift. They should be entitled to a simple 
statutory declaration that providing compatible fishing and 
hunting is one of the purposes of the Refuge system. No federal 
judge, or no Secretary of the Interior, is going to be able to 
ignore or explain away such a straightforward plain spoken 
declaration recognizing that hunting and fishing have a place 
on Refuge lands.
    The behavior of the bill's critics--most notably the major 
environmental interests--also demonstrate the need for a clear 
and plain declaration in support of hunting and fishing. H.R. 
511 and H.R. 1675 have been the subject of an incredible 
campaign of distortion, disinformation, and misinformation. 
These critics have speciously alleged that the bill eliminates 
the conservation mission of the system (section 4 does 
precisely the opposite), mandates hunting and fishing 
everywhere (section 8 does the opposite), ``commercializes'' 
the Refuge system (section 4(a)(3) sets forth six 
``conservation'' purposes) ``drenches'' the System in pesticide 
use, and allows grazing, oil and gas activity, and jet ski use 
everywhere (these sections must be written in invisible ink). 
H.R. 511 is an important wildlife conservation measure which 
will ensure that our Refuge system is managed effectively into 
the next century. And making compatible wildlife-dependent 
recreation a purpose of the System ensures that Congressional 
support for these traditional activities will not be 
misconstrued.
    We appreciate the leadership this Subcommittee has played 
on this legislation and we look forward to working with you to 
quickly enact H.R. 511.

                                ------                                


   Statement of Rodger Schlickeisen, President, Defenders of Wildlife

    Mr. Chairman, I am Rodger Schlickeisen, President of 
Defenders of Wildlife. I appreciate your invitation to testify 
today on behalf of Defenders' nearly 200,000 members and 
supporters.
     First, I would like to thank the Committee for its 
interest in the future of the National Wildlife Refuge System. 
Defenders of Wildlife has long believed that additional 
statutory direction could provide the System with greater unity 
of purpose, future direction and the expanded authorities 
needed to strengthen its ability to conserve fish, wildlife and 
plants. H.R. 511 attempts to tackle many of these complex 
issues. In particular, we support efforts in H.R. 511 to 
formalize the ``compatibility process'' used to regulate 
secondary uses of refuges and the recognition of the System's 
role in contributing to the conservation of the nation's 
ecosystems in its continued growth.
    But make no mistake about it, Mr. Chairman, Defenders of 
Wildlife believes that legislation to accomplish the 
overarching goal of H.R. 511--expanding recreational activities 
in the National Wildlife Refuge System--is not necessary and 
would fundamentally weaken the Refuge System. We strongly 
oppose enactment of H.R. 511 and the closely related bill H.R. 
512.
     Defenders of Wildlife is a national conservation 
organization with a long history of involvement with issues 
relating to the management of the National Wildlife Refuge 
System. In the 1970's, we published a report with 
recommendations for improving the management of the Refuge 
System and later served on a special Department of the Interior 
sponsored task force that developed Final Recommendations on 
the Management of the National Wildlife Refuge System, another 
report containing recommendations for major changes in refuge 
administration. Since then, Defenders has been involved in a 
wide range of administrative, legislative and judicial 
activities concerning the management of individual units of the 
Refuge System and the System as a whole.
     In 1992, we released a report by the Commission on New 
Directions for the National Wildlife Refuge System entitled 
Putting Wildlife First. That report contained recommendations 
of an independent, blue ribbon, panel of wildlife scientists, 
conservation historians, state natural resource managers, legal 
scholars and academics who conducted an eighteen-month review 
of the Refuge System. The Commission reviewed the history of 
the Refuge System and current management issues. Its report 
makes recommendations regarding the present management and 
future direction of the System. We believe that H.R. 511 and 
H.R. 512 are fundamentally inconsistent with both the history 
of the Refuge System and the important future conservation 
challenges identified by this distinguished and independent 
commission.

    Legislation to Accomplish the Principal Goal of H.R. 511 is 
Not Necessary and Would Be Damaging to the National Wildlife 
Refuge System

     Over 4,500 secondary uses are now permitted in the 
National Wildlife Refuge System. (A list of uses permitted by 
the U.S. Fish and Wildlife Service (FWS) as of 1995 is included 
as Exhibit I.) Providing recreational activities, in 
particular, is already an extremely high priority for the 
Refuge System. As of Fiscal Year 1995, more than 95 percent of 
the 92 million acres in the Refuge System were open to hunting. 
Hunting now occurs on over half of the 509 national wildlife 
refuges. Just last year President Clinton further amplified the 
current emphasis on recreational activities. Executive Order 
12996 directs the Interior Secretary to ``provide expanded 
opportunities'' for ``priority public uses ''including 
``hunting, fishing, wildlife observation and photography, and 
environmental education and interpretation.'' Recreational 
activities should have an important role in the Refuge System. 
They should not, however, be elevated to such a priority that 
they are placed in direct competition with wildlife 
conservation for management priority and funding. When this 
happens the resource and recreational enthusiasts both lose.
     H.R. 511 contains various provisions which collectively 
would cause a dramatic and historic shift in the Refuge System 
away from wildlife conservation and toward increased public 
use. The bill would take the Refuge System away from the 
conservation focus that has guided the System since its 
establishment by Teddy Roosevelt ninety-four years ago. 
Wildlife refuges are fundamentally different from other federal 
land systems, such as national parks and forests. Wildlife 
conservation always has been the System's principal focus. Over 
the years, numerous statutes, such as the 1962 Refuge 
Recreation Act and the 1966 National Wildlife Refuge System 
Administration Act, have reaffirmed the fundamental principle 
that recreational uses are important but secondary to wildlife 
conservation on federal refuges. We believe that the cumulative 
effect of various provisions in H.R. 511 would fundamentally 
change this relationship.
    H.R. 511 undermines the Refuge System in four principal 
respects.
    1. The bill severely weakens the FWS's current statutory 
authority to regulate certain recreational uses and codifies 
the existing weak administrative standard used to regulate all 
uses.
    2. The bill makes certain recreational uses co-equal with 
wildlife conservation as purposes of the National Wildlife 
Refuge System.
    3. In this time of tight federal budgets, the bill would 
cause the FWS to devote increased agency resources and staff to 
recreational uses, which would come ultimately at the expense 
of wildlife conservation programs.
    4. As the National Wildlife Refuge System moves into the 
21st Century, H.R. 511 focuses the System on providing 
additional recreational activities while ignoring increasingly 
important management challenges relating to biological 
diversity.

    Regulation of Recreational Uses 

    H.R. 511 impairs FWS's ability to regulate certain 
recreational activities on national wildlife refuges in several 
specific respects:
    <bullet>Section 3 of the bill defines key terms such as 
``conserving'' and ``manage'' to include live trapping and 
regulated taking (hunting and fishing). Since these terms are 
used throughout the purposes section (4) of the bill, and that 
section is the basis for determining whether or not to permit a 
particular use, these definitions would frustrate efforts to 
effectively regulate hunting, fishing and trapping.
    <bullet>Section 4(D) makes providing opportunities for 
``compatible'' fish and wildlife dependent recreation a System 
purpose. This is problematic because the definition section (3) 
makes these activities synonymous with words used throughout 
the pur-

poses section (4). Since compatibility is measured, in part, 
against System purposes, the definition section makes the 
standard for review circular. Moreover, in section 3, 
compatibility is defined in terms of consistency with either 
System purposes or individual refuge purposes. Due to the 
circularity problem detailed above, all the recreational 
activities specified in the bill could be determined compatible 
per se.
    <bullet>Compounding this circularity problem, Section 6 
contains a provision that creates a presumption that specified 
recreational uses are ``generally compatible.''
    <bullet>Section 6 also contains a provision that gives 
special and preferential treatment to hunting and fishing on 
national wildlife refuges by essentially subjecting these uses 
to a different and weaker standard than any other category of 
secondary use. The provision stands on its head the FWS's 
existing discretionary authority to permit these uses and 
virtually mandates that they be allowed. Under this provision, 
these activities effectively must be allowed unless they can be 
proved to be: 1) incompatible (which is nearly impossible under 
the process established in the bill); 2) inconsistent with the 
principles of sound wildlife management; or 3) inconsistent 
with public safety.
    <bullet>Language in Section 8(a) states that hunting and 
fishing are only to be allowed after the review process 
specified in the bill has been followed. As noted above, 
however, this process makes it virtually impossible for the FWS 
to ever find these activities incompatible.
    <bullet>Section 5 defines a ``compatible use'' as one that 
``will not materially interfere with or detract from'' the 
purposes of a refuge or the mission and purposes of the System. 
Since the controlling phrase is stated as an ``either-or,'' the 
practical effect of this language is to enshrine the existing 
weak administrative ``materially interfere'' definition as the 
statutory basis for determining the compatibility of all 
secondary uses.
     Effectively conserving wildlife in the midst of increasing 
demand for use of national wildlife refuges has been a 
longstanding challenge for refuge managers. Over the past 30 
years a seemingly endless stream of reports by government 
agencies and private organizations has repeatedly expressed 
concern over excessive use of refuges. (A summary of some of 
those studies prepared by The Wilderness Society is included as 
Exhibit II.) In 1989, for example, the U.S. General Accounting 
Office (GAO) issued National Wildlife Refuges: Continuing 
Problems with Incompatible Uses Call for Bold Action. The GAO 
report, based on confidential questionnaires sent to 444 refuge 
managers and responses from 428 managers, revealed that 59 
percent of the national wildlife refuges suffered from harmful 
uses that adversely affect the ability of refuge managers to 
manage for the wildlife purposes for which their refuge was 
created. Following the GAO report, the FWS appointed a 
Compatibility Task Group to conduct interviews with the 
managers of wildlife refuges and Waterfowl Production Areas. 
The Task Group's 1990 report, Secondary Uses Occurring on 
National Wildlife Refuges, surveyed 478 units of the Refuge 
System, and found that 63 percent of the refuges had harmful 
uses. The FWS report identified Florida's ``Ding'' Darling 
National Wildlife Refuge as having the greatest number of 
incompatible uses. Most of the incompatible uses at ``Ding'' 
Darling were attributed to levels of public use exceeding the 
carrying capacity of the resource. Wildlife observation and 
wildlife tour routes were identified as two of the incompatible 
uses at this refuge.
    Today, the concerns raised in the GAO and FWS reports have 
been, or are being, brought under control. However, the long 
history of the reports demonstrates that widespread secondary 
use problems have a predictable habit of again taking root 
after a major reform effort. Thus, a familiar cycle exists in 
the management of refuge: In response to widespread problems, 
FWS places greater emphasis on controlling incompatible uses 
and on and on. This ``fixed-broken'' cycle has repeated itself 
over and over again in recent decades.
    H.R. 511 undermines FWS' ability to effectively regulate 
secondary uses in two general ways. First, it would effectively 
establish a separate and weaker compatibility standard for 
certain types of recreational activities. Second, it would 
codify the existing but weak administrative definition of what 
constitutes a compatible use. Report after report has shown 
that, depending upon the circumstances, any type of use can be 
incompatible. All uses, including ones that are ``wildlife 
dependent,'' should be held to the same effective regulatory 
standard.

    Purposes of the National Wildlife Refuge System 

    H.R. 511 makes certain recreational uses co-equal with the 
conservation purposes of the National Wildlife Refuge System.
    <bullet>Section 4(D) makes providing opportunities for 
``compatible'' fish and wildlife dependent recreation a System 
purpose.
    The bill establishes, for the first time ever, a set of 
system-wide purposes for the National Wildlife Refuge System. 
The importance of Congress establishing System purposes should 
not be overlooked. H.R. 511 would define in statute an identity 
for the only network of federal lands dedicated to wildlife 
conservation. The System purposes articulated in section 4 
constitute the essence of the so-called ``organic acts'' that 
have long provided the basic management philosophy for our 
national parks, forests and Bureau of Land Management areas.
    While various types of recreational activities and 
environmental education can, and should, play an important role 
in the Refuge System, such uses should not be afforded equal 
status with the System's various wildlife conservation 
purposes. Since the inception of the Refuge System, a clear 
distinction has always existed between ``purposes'' and 
``uses.'' That distinction must continue.

    Allocation of Agency Resources and Staff 

    H.R. 511 gives certain recreational uses a leg up in the 
competition for increasingly scarce agency resources and staff 
and could lead the FWS to spend a disproportionate share of its 
resources on administering public use programs instead of 
conserving waterfowl, migratory birds, endangered species and 
other important elements of the nation's biological diversity.
    <bullet>A provision in Section 6 states that ``no other 
determinations or findings, except the consistency with State 
laws and regulations provided in subsection (m), are required 
to be made for fishing and hunting to occur.'' This language 
could easily be interpreted as implicitly repealing an existing 
requirement, contained in the 1962 Refuge Recreation Act, that 
the FWS must find that funding is available to administer 
public use programs before those programs are permitted.
     Chronic funding shortfalls for the Refuge System led 
Defenders of Wildlife and other groups to join together in 1995 
to form the Cooperative Alliance for Refuge Enhancement (CARE). 
CARE works to educate the American public and Congress about 
the need for greater federal funding for the Refuge System. 
Testifying on behalf of CARE earlier this week, the Wildlife 
Management Institute told the House Interior Appropriations 
Subcommittee that management programs to help recover 
endangered, threatened and candidate species, restore habitats 
and address resource threats are left unaccomplished on an 
increasing number of refuges. Another important but unmet 
resource conservation priority, I might add, relates to 
inventorying and monitoring the status and trends of fish, 
wildlife and plants in each refuge. As an active member of 
CARE, Defenders has supported the current federal resource 
allocation. This allocation places strong emphasis on providing 
recreational opportunities while assuring that this emphasis 
does not overshadow the need for important programs which 
directly benefit species and habitat. This balance must not be 
tipped in favor of public use over conservation.

    Preparing the National Wildlife System for the Challenges 
of the 21st Century

    Apart from inappropriately boosting the role of recreation 
in the National Wildlife Refuge System, H.R. 511 fails to 
recognize long overdue conservation needs relating to 
management of the System for species diversity. Refuge 
management legislation sponsored in the 103rd Congress by Sen. 
Bob Graham and Rep. Sam Gibbons stated explicitly that 
conserving biological diversity was one of purposes of the 
Refuge System. There is a strong international scientific 
consensus that depletion of biodiversity through the loss of 
species and natural habitat is one of the world's most serious 
environmental problems. The 1992 Putting Wildlife First report 
pointed out that any serious effort to protect biodiversity 
must start with the national wildlife refuges, the only system 
of federal lands for which protecting species and habitat is 
its top priority. The urgency of placing greater emphasis on 
biological diversity was further amplified by a 1995 Defenders 
of Wildlife study entitled Endangered Ecosystems: A Status 
Report on America's Vanishing Habitat and Wildlife. The 
scientific study found that natural ecosystems throughout the 
nation are in serious decline, especially those in Florida, 
California and Hawaii.
    In articulating a set of purposes for the Refuge System, a 
careful balance must be struck between FWS's obligation to 
manage for traditional so-called ``trust species'' and the 
Refuge System's need to help conserve the diversity of this 
nation's fish, wildlife and plants. The absence of species 
diversity language in the purposes section of H.R. 511 is 
likely to discourage the FWS from even making biological 
diversity an important consideration in the management of 
federal refuges. As the nation approaches the 21st Century, 
this is simply unacceptable for the only network of federal 
lands established to conserve fish and wildlife.

    H.R. 512: Discouraging the Establishment of New Refuges 

     Several recent reports, including Putting Wildlife First 
and the Endangered Ecosystems report, underscore the importance 
of acquiring and protecting represent-

ative portions of unique habitat types before they are lost 
forever. Unfortunately, H.R. 512 would erect a substantial new 
road block to habitat acquisitions that may be needed to 
improve the Refuge System. H.R. 512 requires a separate 
Congressional authorization, in addition to the already 
required appropriation law, before any Land Water Conservation 
Funds can be used for the establishment of a new refuge. The 
bill is identical to a committee amendment offered by Rep. 
Richard Pombo that added the provision to refuge management 
legislation considered in the 104th Congress (H.R. 1675). H.R. 
512 would severely constrain FWS's ability to purchase quickly 
important habitat offered by willing sellers.
    Even under the existing acquisition process, landowners are 
routinely told by the FWS that they must wait at least one and 
one-half to two years for Congress to appropriate funds. This 
delay has already proven unacceptable to some willing sellers. 
In Vermilion Parish, Louisiana, for example, FWS has apparently 
lost the opportunity to establish a new 7,700 acre refuge to 
protect wetlands and migratory birds and other species because 
the owners of the 5,000 acre Latanier Bayou tract could not 
wait for federal funds to become available. Lengthening an 
already long wait will only serve to further discourage willing 
sellers and exacerbate FWS's difficulties in acquiring land for 
new refuges. Requiring that Congress enact a separate law could 
effectively stymie the protection of biologically-important and 
imperiled wildlife habitat through the establishment of new 
refuges.

    Does the Refuge System Need New Legislation? 

     Proponents of H.R. 511 point out there is no statutory 
list of purposes for the National Wildlife Refuge System, and 
no statutory definition of what constitutes a ``compatible'' 
use of a refuge, and that the refuges are not managed as a 
national system. If these were the primary goals of H.R. 511 
Defenders of Wildlife could be a ready supporter. Indeed, 
Defenders and other conservation groups earlier urged Congress 
to enact the National Wildlife Refuge System Management and 
Policy Act, a bill sponsored by Senator Bob Graham. 
Unfortunately, the primary thrust of H.R. 511 is to 
inappropriately and unnecessarily elevate recreation at the 
expense of wildlife conservation. Defenders of Wildlife 
understands that Representative George Miller has, or will 
shortly, introduced refuge management legislation entitled the 
``Theodore Roosevelt Wildlife Legacy Act of 1997.'' We have 
reviewed a draft of this bill and believe that it accomplishes 
management objectives vital to the functioning of the National 
Wildlife Refuge System in the 21st Century without threatening 
the integrity of the System. The Theodore Roosevelt Wildlife 
Legacy Act provides a constructive approach that we urge the 
Committee to consider as an alternative to H.R. 511.
    We urge the Committee to support the Theodore Roosevelt 
Wildlife Legacy Act as a balanced and sensible alternative to 
the step backward that H.R. 511 and H.R. 512 represent.

                                ------                                

[GRAPHIC] [TIFF OMITTED] T0567.001

[GRAPHIC] [TIFF OMITTED] T0567.002

[GRAPHIC] [TIFF OMITTED] T0567.003

[GRAPHIC] [TIFF OMITTED] T0567.004

[GRAPHIC] [TIFF OMITTED] T0567.005

[GRAPHIC] [TIFF OMITTED] T0567.006

[GRAPHIC] [TIFF OMITTED] T0567.007

[GRAPHIC] [TIFF OMITTED] T0567.008

[GRAPHIC] [TIFF OMITTED] T0567.009

[GRAPHIC] [TIFF OMITTED] T0567.010

[GRAPHIC] [TIFF OMITTED] T0567.011

[GRAPHIC] [TIFF OMITTED] T0567.012

[GRAPHIC] [TIFF OMITTED] T0567.013

[GRAPHIC] [TIFF OMITTED] T0567.014

[GRAPHIC] [TIFF OMITTED] T0567.015

[GRAPHIC] [TIFF OMITTED] T0567.016

[GRAPHIC] [TIFF OMITTED] T0567.017

[GRAPHIC] [TIFF OMITTED] T0567.018

[GRAPHIC] [TIFF OMITTED] T0567.019

[GRAPHIC] [TIFF OMITTED] T0567.020

[GRAPHIC] [TIFF OMITTED] T0567.021

[GRAPHIC] [TIFF OMITTED] T0567.022

[GRAPHIC] [TIFF OMITTED] T0567.023

[GRAPHIC] [TIFF OMITTED] T0567.024

[GRAPHIC] [TIFF OMITTED] T0567.025

[GRAPHIC] [TIFF OMITTED] T0567.026

[GRAPHIC] [TIFF OMITTED] T0567.027

[GRAPHIC] [TIFF OMITTED] T0567.028

[GRAPHIC] [TIFF OMITTED] T0567.029

[GRAPHIC] [TIFF OMITTED] T0567.030

[GRAPHIC] [TIFF OMITTED] T0567.031

[GRAPHIC] [TIFF OMITTED] T0567.032

[GRAPHIC] [TIFF OMITTED] T0567.033

[GRAPHIC] [TIFF OMITTED] T0567.034

[GRAPHIC] [TIFF OMITTED] T0567.035

[GRAPHIC] [TIFF OMITTED] T0567.036

[GRAPHIC] [TIFF OMITTED] T0567.037

[GRAPHIC] [TIFF OMITTED] T0567.038

[GRAPHIC] [TIFF OMITTED] T0567.039

[GRAPHIC] [TIFF OMITTED] T0567.040

[GRAPHIC] [TIFF OMITTED] T0567.041

[GRAPHIC] [TIFF OMITTED] T0567.042

[GRAPHIC] [TIFF OMITTED] T0567.043

[GRAPHIC] [TIFF OMITTED] T0567.044

[GRAPHIC] [TIFF OMITTED] T0567.045

[GRAPHIC] [TIFF OMITTED] T0567.046

[GRAPHIC] [TIFF OMITTED] T0567.047

[GRAPHIC] [TIFF OMITTED] T0567.048

[GRAPHIC] [TIFF OMITTED] T0567.049

[GRAPHIC] [TIFF OMITTED] T0567.050

[GRAPHIC] [TIFF OMITTED] T0567.051

[GRAPHIC] [TIFF OMITTED] T0567.052

[GRAPHIC] [TIFF OMITTED] T0567.053

[GRAPHIC] [TIFF OMITTED] T0567.054

[GRAPHIC] [TIFF OMITTED] T0567.055

[GRAPHIC] [TIFF OMITTED] T0567.056

[GRAPHIC] [TIFF OMITTED] T0567.057

[GRAPHIC] [TIFF OMITTED] T0567.058

[GRAPHIC] [TIFF OMITTED] T0567.059

[GRAPHIC] [TIFF OMITTED] T0567.060

[GRAPHIC] [TIFF OMITTED] T0567.061

[GRAPHIC] [TIFF OMITTED] T0567.062

[GRAPHIC] [TIFF OMITTED] T0567.063

[GRAPHIC] [TIFF OMITTED] T0567.064

[GRAPHIC] [TIFF OMITTED] T0567.065

[GRAPHIC] [TIFF OMITTED] T0567.066

[GRAPHIC] [TIFF OMITTED] T0567.067

[GRAPHIC] [TIFF OMITTED] T0567.068

[GRAPHIC] [TIFF OMITTED] T0567.069

[GRAPHIC] [TIFF OMITTED] T0567.070

[GRAPHIC] [TIFF OMITTED] T0567.071

[GRAPHIC] [TIFF OMITTED] T0567.072

[GRAPHIC] [TIFF OMITTED] T0567.073

[GRAPHIC] [TIFF OMITTED] T0567.074

[GRAPHIC] [TIFF OMITTED] T0567.075

[GRAPHIC] [TIFF OMITTED] T0567.076

[GRAPHIC] [TIFF OMITTED] T0567.077

[GRAPHIC] [TIFF OMITTED] T0567.078

[GRAPHIC] [TIFF OMITTED] T0567.079

[GRAPHIC] [TIFF OMITTED] T0567.080

[GRAPHIC] [TIFF OMITTED] T0567.081

[GRAPHIC] [TIFF OMITTED] T0567.082

[GRAPHIC] [TIFF OMITTED] T0567.083

[GRAPHIC] [TIFF OMITTED] T0567.084

[GRAPHIC] [TIFF OMITTED] T0567.085

[GRAPHIC] [TIFF OMITTED] T0567.086

[GRAPHIC] [TIFF OMITTED] T0567.087

[GRAPHIC] [TIFF OMITTED] T0567.088

[GRAPHIC] [TIFF OMITTED] T0567.089

[GRAPHIC] [TIFF OMITTED] T0567.090


</pre></body></html>
